No. __________
IN THE

Supreme Court of the United States
CARLIN ROBINSON, INDIVIDUALLY, AS GUARDIAN AND NEXT FRIEND
OF I.Y., M.Y., AND A.Y., AND AS PERSONAL REPRESENTATIVE OF
THE ESTATE OF VERONICA WILLIAMS, DECEASED,
Petitioners,
v.
DANIEL A. LIOI, ET AL.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit

APPENDIX
CARY HANSEL
Counsel of Record
HANSEL LAW, P.C.
2514 N. Charles Street
Baltimore, MD 21218
(301) 461‐1040
cary@hansellaw.com

Counsel for Petitioners

December 2019

APPENDIX 1: Opinion of the United States Court
of Appeals, Fourth Circuit, filed July 16,
2019 ...................................................................................... App. 1
APPENDIX 2: Opinion of the United States
District Court for the District of Maryland,
filed June 30, 2017 ........................................................ App. 89
APPENDIX 3: Opinion of the United States Court
of Appeals, Fourth Circuit, denying petition
for rehearing en banc, filed September 18,
2019 ................................................................................. App. 128

App. 1
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 17-1848
EUNICE GRAVES,
Plaintiff – Appellant,
and
CARLIN ROBINSON, individually, as Guardian and
next Friend of I.Y., M.Y. and A.Y., and as Personal
Representative of the Estate of Veronica Williams,
Deceased,
Plaintiff,
v.
DANIEL A. LIOI; MELVIN RUSSELL, Major,
Defendants – Appellees
and
BALTIMORE CITY POLICE DEPARTMENT,
Defendant,
CLEAVEN L. WILLIAMS, JR.,
Defendant.
No. 17-1857
CARLIN ROBINSON, individually, as Guardian and
next Friend of I.Y., M.Y. and A.Y., and as Personal
Representative of the Estate of Veronica Williams,
Deceased,
Plaintiff – Appellant,
and
EUNICE GRAVES,
Plaintiff,

App. 2
v.
DANIEL A. LIOI; MELVIN RUSSELL, Major,
Defendants – Appellees,
and
BALTIMORE CITY POLICE DEPARTMENT,
Defendant,
CLEAVEN L. WILLIAMS, JR.,
Defendant.
Appeals from the United States District Court for
the District of Maryland, at Baltimore. Catherine C.
Blake, District Judge. (1:12-cv-00192-CCB)
Argued: September 26, 2018 Decided: July 16, 2019
Before GREGORY, Chief Judge, and NIEMEYER
and AGEE, Circuit Judges.
Affirmed by published opinion. Judge Agee wrote the
opinion in which Judge Niemeyer joined. Chief
Judge Gregory wrote a dissenting opinion.
ARGUED: Cary Johnson Hansel, III, HANSEL
LAW, P.C., Baltimore, Maryland, for Appellants.
Elisabeth Susanne Walden, BALTIMORE CITY
LAW DEPARTMENT, Baltimore, Maryland, for
Appellees. ON BRIEF: Daniel L. Cox, THE COX
LAW CENTER, LLC, Emmitsburg, Maryland, for
Appellants. Suzanne Sangree, Senior Public Safety
Counsel, Daniel C. Beck, Chief of Police Legal
Affairs, Kara K. Lynch, Assistant Solicitor,
BALTIMORE
CITY
LAW
DEPARTMENT,
Baltimore, Maryland, for Appellees.

App. 3
AGEE, Circuit Judge:
Cleaven Williams stabbed his pregnant wife,
Veronica (“Mrs. Williams”), outside a Baltimore,
Maryland, courthouse where she had just obtained a
protective order against him. Mrs. Williams and her
unborn child died from their injuries a few days
later. Carlin Robinson, the Personal Representative
of Mrs. Williams’ estate and Guardian and Next
Friend of her children, and Eunice Graves, Mrs.
Williams’ mother, filed federal and state claims
against Baltimore City Police Department (BCPD)
officer Daniel A. Lioi. The Complaint alleged that
Lioi was responsible for Mrs. Williams’ death
because he enabled Williams to postpone his selfsurrender on a misdemeanor arrest warrant, which
provided Williams the opportunity to murder his
wife.
We previously affirmed, on interlocutory appeal,
the district court’s denial of Lioi’s motion to dismiss
the claims against him as being barred by qualified
immunity. Robinson v. Lioi, 536 F. App’x 340 (4th
Cir. 2013). Thereafter, Robinson and Graves
(collectively “Robinson”) amended their complaint to
add another BCPD officer, Major Melvin Russell, as
a defendant. Following discovery, the district court
granted summary judgment to both officers,
Robinson v. Lioi, No. 1:12-cv-00192-CCB, 2017 WL
2937568 (D. Md. June 30, 2017), concluding that the
evidence was not sufficient to allow a verdict in
Robinson’s favor and, in the alternative, the officers
were entitled to qualified and public official
immunity.
Robinson now appeals. For the reasons set forth
below, we affirm the judgment of the district court.

App. 4

I.
In reviewing the propriety of granting summary
judgment, we consider the facts in the light most
favorable to the nonmoving party, here, Robinson,
and draw all reasonable inferences in her favor. See
Doe v. Rosa, 795 F.3d 429, 436 (4th Cir. 2015).
A.
In the summer of 2008, Williams met Deputy
Major Lioi and Major Russell of the BCPD’s Eastern
District in the course of Williams’ role as the
president
of
a
Baltimore-area
community
association. The men interacted at a handful of civic
events that summer and fall.
The events forming the basis of Robinson’s
claims occurred over a nine-day period from Sunday,
November 9, 2008, when a misdemeanor arrest
warrant was issued for Williams’ arrest, to Monday,
November 17, 2008, when Williams fatally stabbed
his pregnant wife.
On the evening of Sunday, November 9, Mrs.
Williams obtained a temporary protective order
against Williams based on an assault that occurred
the prior month in which he physically restrained
her and cut off some of her hair. Based on the same
incident, the Baltimore City Court Commissioner
also issued an arrest warrant for Williams charging
him with the misdemeanor offenses of second-degree
assault and unauthorized removal of property.
Minutes after the warrant issued, a police
dispatcher notified BCPD Officer Jose Arroyo that a
misdemeanor warrant was ready to be picked up

App. 5
from the Court Commissioner’s office.1 Had Arroyo
followed normal procedure, he would have taken the
warrant directly to the “hot desk” at Central Records
to have it logged into the police computer database.
J.A. 575. Instead, Arroyo took the warrant to the
BCPD’s Eastern District office. Arroyo indicated that
he sometimes bypassed the normal procedure if a
supervisor ordered him to do so, but he could not
remember whether anyone had issued such an order
regarding this warrant. Nor could he provide any
explanation for why he deviated from the procedure
this time.
After Arroyo arrived at the Eastern District, an
unidentified person instructed him to leave the
arrest warrant on the desk handling the Sector 1
region. Arroyo could not recall who told him to leave
the warrant there, or why, but the address listed on
the warrant for Williams was located in Sector 1.
Arroyo knew both Lioi and Russell, and when he was
specifically asked if Russell or Lioi had instructed
him to bring the warrant to the Eastern District,
Arroyo testified that he “d[id]n’t recall.” J.A. 578. He
then clarified that, given the chain of command, he
would not have received an order directly from either
officer and that he “d[id]n’t know” whether either of
them had given such an instruction to someone else.
J.A. 579–80.
At some point over the weekend, Williams
contacted Russell and was concerned that his wife
“got papers on him.” J.A. 706. Williams asked

When a police dispatcher alerts an officer that a warrant is
ready to be picked up, the arrestee is not identified. See J.A.
549.

1

App. 6
Russell if he could find out what happened.2 In his
deposition, Russell stated that he first learned of the
arrest warrant when he returned to work on Monday
or Tuesday (November 10 or 11) and Officer
Adrienne Byrd showed it to him.3 Russell had
observed Byrd holding the warrant for Williams in
her hands, but he testified that he never took
physical possession of the warrant at that time or
later.
Russell later spoke with Williams, confirming
that there was a warrant for his arrest and
encouraging him to turn himself in. J.A. 451–54,
707. Russell advised that Williams should not wait
to turn himself in because if he were arrested on a
Friday and his arraignment were to be delayed, he
could be detained over the weekend.
Beginning on Monday, police officers attempted
to arrest Williams at his residence, but were
unsuccessful. J.A. 112, 451–52, 485, 707–08, 762,
815. Russell said he personally went by Williams’
residence to arrest him “once, maybe twice,” but it
was dark and no one answered the door. J.A. 451.
On Wednesday (November 12), Williams texted
Russell to say that he would like to turn himself in
the following Tuesday in order to have time to raise
In his statement during the internal investigation, Russell
said that Williams had called him over the weekend “concerned
that his wife, as he described it got some papers on him. He
was concerned that his wife lied on him, went down to
wherever and got papers on him, and he wanted me to see if
that was actually true.” J.A. 706.

2

Russell could not recall whether he returned to work that
week on Monday or Tuesday, but stated that the earliest his
conversation with Byrd would have occurred was the morning
of Monday, November 10. J.A. 445, 470.

3

App. 7
sufficient bond money. Russell called Williams and
encouraged him to turn himself in without delay.
J.A. 451–52, 482–83. Later that afternoon, Russell
informed Lioi—who was the next senior officer in the
Eastern District—that Williams would be turning
himself in the next evening. Russell asked Lioi to
oversee the process because Russell was not
scheduled to work Thursday evening.4
On Thursday afternoon (November 13), Williams
texted Russell that he was “running behind,” but
“should be there in 15.” J.A. 480. Russell replied,
“K.” J.A. 480. Both men stated in their depositions
that the texts referred to Williams self-surrendering,
but Williams did not show up at the station that
afternoon.
Instead, at about 9:00 p.m., Williams arrived at
the Eastern District to self-surrender. Lioi called
Central Records to get the arrest warrant and
learned that it had not been logged into their
database and they did not have the warrant. Lioi
enlisted help in searching for the warrant at the
Eastern District and in calling other possible
locations, but no one could locate it. For example,
Lioi called Russell to see if he could help them locate
the warrant, but Russell did not answer his phone,
Russell and Lioi both stated that Russell did not ask that
Williams be given special treatment, but just that “because of
[Williams’] role in the community, to make sure this was being
taken care of.” J.A. 467 (Russell); J.A. 287–88 (Lioi: “Russell
said just be at the district and meet him when he comes in to
make sure the process goes well, but nobody said, you know, do
anything out of the unusual. . . . He was a community leader, so
just make sure everything goes well and that, you know, he’s
processed and goes to central booking and they walk him
through the system.”).

4

App. 8
so Lioi left him a voice mail message. And when Lioi
called the court commissioner, he was told “that the
warrant possibly could be at the North Avenue
Courthouse,” which he also tried to reach, but it was
closed for the night. J.A. 562.
After concluding that they were not going to
promptly locate the arrest warrant, Lioi allowed
Williams to leave the Eastern District station so long
as he agreed to return once they found the warrant.
Williams agreed and asked if he could self-surrender
after the weekend. He mentioned having several
things to do and not wanting to risk being detained if
the arraignment was delayed on Friday. It’s not
clear from the record what agreement Lioi and
Williams reached at that time, but Williams
departed the police station.
Shortly thereafter, Russell returned Lioi’s call
and recommended that Lioi contact Byrd because he
had seen her with the warrant earlier that week and
believed she had attempted to arrest Williams. In
addition, Russell suggested that Lioi search Byrd’s
patrol car for the paperwork.
After Russell’s call, Sergeant Todd Tugya, who
was helping Lioi search for the warrant, telephoned
Byrd. She “advised that she did, indeed, have
possession of the warrant . . . and that she had
attempted to serve it. However, she advised that she
left the warrant in the visor of her patrol car because
she intended to continue her attempts to serve it on
her next shift.” J.A. 112. She told Tugya which
patrol car she had used, so that they could search it.5
When deposed in this case, Byrd could not recall many of the
details surrounding these events. She knew she had received
some paperwork on Williams at roll call, but did not recall what
the papers were. She also could not recall what happened to the

5

App. 9
Just after midnight on Friday (November 14),
officers located the warrant over the visor of Byrd’s
patrol car.
Later that day, Lioi “confirmed” with Russell
that Williams could self-surrender after the
weekend. J.A. 277. Russell indicated to Lioi that was
“fine.” J.A. 277. Lioi also called Williams to let him
know they had found the warrant and he needed to
turn himself in. Williams indicated he would selfsurrender on Tuesday, and Lioi agreed.
Later that evening, Williams contacted Lioi and
said that he was meeting with his lawyers to prepare
for his criminal case. Williams suggested that having
a letter explaining that he had attempted to selfsurrender, but that the warrant could not be located,
may help him in court. Lioi agreed to write the letter
because those were “the facts.” J.A. 285. His letter
explained that Williams had been “very cooperative
and willing to turn himself in” but that Central
Records did not have the warrant on file and had
“advised that the warrant was being held at North
Avenue Court House, which was closed for the
night.” J.A. 631.
Williams later asked Lioi for a second letter
because his lawyers had discovered an arrest
warrant from another Maryland locality charging a
“Cleaven Williams” with offenses unrelated to those
known to be pending against him. Williams asked
Lioi to write about that warrant, too; Lioi provided a
papers; she believed “[s]omeone took the paperwork” from her,
but she did not know who or when. J.A. 108. She did not recall
trying to serve the arrest warrant or having the papers in her
patrol car. J.A. 106–09.

App. 10
letter stating that he had reviewed the other arrest
warrant and observed that it contained minimal
identifying information about the named individual,
referenced
an
address
that
“[t]o
[Lioi’s]
understanding[,] [Williams] had never resided at,”
and that the wanted individual “should not be
considered to be [Williams] based on the name
alone.” J.A. 632. In texting about the letters,
Williams asked Lioi for “an overview of the night”
and “not too much detail.” J.A. 101. When Lioi
agreed, Williams expressed his appreciation, texting
“There is a method to my madness:-/,” to which Lioi
replied, “That’s what I’m afraid of.” J.A. 101.
On Monday afternoon (November 17), Williams
and Lioi exchanged another set of text messages—
[Williams:] . . . I just left my home 2 meet
w/my lawyer…I saw my wife drive by…can I
go home or what?
[Lioi:] I wouldn’t be alone with her. She could
say you did anything. Have a witness with
you if you meet.
[Williams:] Thanks Dan[.]
[Williams:] Can she do another protection
order & try 2 keep me from the house?
[Lioi:] She could. I would avoid her. She
could call the police and say u have the
warrant and she is afraid of you. It would
force our hand to serve the warrant.
J.A. 559. Williams later called Lioi from his lawyer’s
office to discuss the two warrants again, at which
time Lioi “t[old] him that he should, you know, turn
himself in, the weekend’s over, let’s get this taken
care of today.” J.A. 286. Williams indicated Tuesday

App. 11
was still better, and Lioi told him to call after
leaving the lawyer’s office.
A few hours later, Williams stabbed his wife,
which resulted in her death and that of her unborn
child.6
B.
Robinson filed a complaint in Maryland state
court alleging that Lioi was liable for Mrs. Williams’
death under several state and federal laws. Lioi
removed the case to the U.S. District Court for the
District of Maryland and moved to dismiss on the
basis of qualified immunity.7 The district court
denied Lioi’s motion. He appealed, and we affirmed
in an unpublished decision. Robinson, 536 F. App’x
at 340.
Critically, our decision on the motion to dismiss
under Federal Rule of Civil Procedure 12(b)(6)
necessarily accepted as true all of the allegations in
Robinson’s Complaint. Id. at 341. On that basis, we
concluded that the Complaint adequately alleged
that Lioi engaged in affirmative acts that could
make him liable to Robinson for a violation of Mrs.
Williams’ due process rights under the state-created
danger doctrine. Id. at 343–44 (discussing the
development of the doctrine that had its genesis in
DeShaney v. Winnebago Cty. Dep’t of Soc. Servs., 489
U.S. 189 (1989)). Robinson alleged that Lioi
Williams was prosecuted in state court, convicted, and
sentenced to life imprisonment for his crime.

6

Robinson also brought claims against the BCPD and
Williams, but the district court separately dismissed those
claims and they are not at issue on appeal.

7

App. 12
“withheld the warrant [from the unit that should
have served it] so that [the Eastern District] could
retain control over whether it would be served or
not;” “warned Mr. Williams of the warrant and their
feigned efforts to serve him;” “purposefully refused to
serve or arrest [Williams when he self-surrendered],
falsely claiming instead that the warrant allegedly
could not be found. This was an intentional and
malicious act . . . for the purpose of allowing Mr.
Williams to remain free despite the warrant;” and
“placed Mrs. Williams in a police-created zone of
danger by intentionally conspiring with Mr.
Williams to permit him to remain free despite ample
opportunity to arrest him.” Complaint at 4–5, 9,
Robinson v. Lioi, No. 1:12-cv-00192-CCB, 2012 WL
2992251 (D. Md. July 18, 2012), ECF No. 2.
When we considered whether Lioi was entitled to
dismissal of the claims against him, we specifically
pointed to these allegations as the basis for our
decision. Robinson, 536 F. App’x at 341, 344. We
concluded that, as a whole, these allegations
encompassed affirmative acts that could have
“directly enabled” Williams to harm Mrs. Williams.
Id. at 345. Accordingly, we held that the Complaint
adequately alleged a due process violation for Rule
12(b)(6) purposes.
In so doing, we rejected Lioi’s reliance on Town
of Castle Rock v. Gonzales, 545 U.S. 748 (2005), in
which the Supreme Court held that no due process
violation occurred when police officers failed to
enforce a restraining order. Robinson, 536 F. App’x
at 345. We explained that “Lioi’s alleged conduct in
this case was not confined to a failure to execute [an]
arrest warrant,” but rather included allegations that
he “affirmatively acted to interfere with execution of

App. 13
the warrant by conspiring with Cleaven Williams to
evade capture and remain at large.” Id.
C.
After Lioi’s prior appeal, Robinson amended her
Complaint to add Russell as a defendant. She
alleged the following claims against both officers:
violation of Mrs. Williams’ due process rights, in
violation of 42 U.S.C. § 1983; conspiracy to violate
Mrs. Williams’ constitutional rights, in violation of
42 U.S.C. § 1985; and numerous Maryland state law
claims.8 The alleged factual basis of the claims
remained substantively the same as in her original
Complaint.
After discovery, Lioi and Russell moved for
summary judgment, challenging the substantive
claims and arguing that they were entitled to
qualified immunity on the federal claims and to
public official immunity on the state claims. In
addition to deposition statements, affidavits, and
other records from the participants in the events
described above, Lioi and Russell submitted an
affidavit from an expert witness, Stanford O’Neill
Franklin, an officer with thirty-four years of law
enforcement experience in Maryland, including time
with the BCPD. In relevant part, Franklin stated
that, in his experience, if Williams had “been
arrested and processed” following his Thursday
evening self-surrender, “he would have been released
within 24 hours on his personal recognizance, or
required to post minimum bail, which means he
Robinson alleged Maryland claims of wrongful death, survival
action, gross negligence, reckless endangerment, intentional
infliction of emotional distress, and common law conspiracy.

8

App. 14
would have been back on the street by Saturday
morning, November 15, 2008.” J.A. 127–28.
The district court awarded summary judgment
to Lioi and Russell. Robinson, 2017 WL 2937568, at
*14. It concluded that a jury could not find in favor
of Robinson on the substantive question of whether
the officers’ conduct constituted a state-created
danger because Robinson’s evidence did not show
that Lioi and Russell “committed affirmative acts
that created or enhanced the danger to” Mrs.
Williams. Id. at *9. The district court held in the
alternative that Lioi and Russell were entitled to
qualified immunity because, even if a violation had
occurred, it was not clearly established. The court
explained: “the facts are not sufficient to show that a
reasonable officer in either defendant’s position
would have understood he was violating” Mrs.
Williams’ rights by “using [his] discretion not to
aggressively serve an arrest warrant and instead
allow Mr. Williams to delay his date of voluntary
surrender by several days.” Id. at *10.
The district court also granted Lioi and Russell
summary judgment on Robinson’s other claims. Id.
at *10–14. In relevant part, it held that the
conspiracy claims could not survive because
Robinson produced no evidence of a conspiracy to
violate Mrs. Williams’ constitutional rights and no
evidence that Lioi’s and Russell’s conduct caused her
death. Id. at *10–11. Similarly, the court held that
the officers were entitled to summary judgment on
the gross negligence claim because Robinson
produced no evidence that they intended to injure
Mrs. Williams or were so utterly indifferent to her
rights that they acted as if her rights did not exist.
Id. at *11–12. In addition, it held that the causation

App. 15
element had not been satisfied. Id. at *12–13. The
district court also granted Lioi and Russell summary
judgment on the wrongful death and survival actions
because they were entitled to public official
immunity under Maryland law for any negligent
conduct and no evidence supported intentional
misconduct or gross negligence. Id. at *14. It further
concluded those claims would also fail on causation
grounds. Id.
Robinson noted a timely appeal, and the Court
has jurisdiction under 28 U.S.C. § 1291.
II.
Robinson’s appeal focuses on the district court’s
award of summary judgment to Lioi and Russell on
her § 1983 substantive due process claim. She
contends the record adequately demonstrates that
Lioi and Russell committed various affirmative acts
that could make them liable under the state-created
danger doctrine. Robinson further challenges the
district court’s alternative holding that the officers
were entitled to qualified immunity on the due
process claim. Lastly, she challenges its judgment in
favor of Lioi and Russell on her state-law claims.
This Court reviews de novo the district court’s
grant of summary judgment. Doe, 795 F.3d at 436.
Summary judgment is appropriate if the evidence
shows that “there is no genuine dispute as to any
material fact,” Fed. R. Civ. P. 56(a), such that “‘a
reasonable jury could [not] return a verdict for the
nonmoving party,’” Doe, 795 F.3d at 436 (alteration
in original) (quoting Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986)).

App. 16
Stating the standard of review is usually a fairly
rote practice, but it has particular significance in
this case given the contrast that it signals between
this appeal and our prior review of Robinson’s
allegations. In this case, we are confronted with the
view proposed in Robinson’s briefs and adopted by
the dissenting opinion that the outcome of this
appeal should be dictated by our prior decision. E.g.,
Opening Br. 19 (asserting the district court’s opinion
“virtually ignored” the Court’s prior decision, which
had “already held” that Lioi and Russell’s conduct
fell within the state-created danger theory). Relying
on the law-of-the-case doctrine, the dissent accuses
us of “rescind[ing] our prior holding, shielding [this]
decision . . . with the defense that we are now at the
summary judgment stage.” Infra at 64–65. But there
is nothing remarkable in the black-letter law
understanding that plaintiffs are held to different
standards at different stages of the proceedings in
the district court, or that appeals from those
decisions are also subject to different standards.
It cannot be put more plainly: we previously
considered whether Robinson’s allegations stated a
claim against Lioi because we were considering only
the district court’s decision to deny a motion to
dismiss under Rule 12(b)(6). Now, we are reviewing
whether Robinson’s evidence supports a claim
against Lioi and Russell because we are considering
the district court’s decision to grant a motion for
summary judgment under Rule 56(a). Bennet v.
Spear, 520 U.S. 154, 168 (1997) (contrasting the
pleading stage, where “on a motion to dismiss
[courts] presume that general allegations embrace
those specific facts that are necessary to support the
claim” with the summary judgment stage, where “a

App. 17
plaintiff must set forth [specific facts] by affidavit or
other evidence” (internal quotation marks and
alterations omitted)). This “wholly different
substantive and procedural context” matters when
analyzing Robinson’s claim. See SD3 II LLC v. Black
& Decker (U.S.) Inc., 888 F.3d 98, 109 (4th Cir.
2018). Unlike the first time this case came before us,
we are no longer obliged to accept Robinson’s
allegations as true. While Robinson is still entitled to
have the record viewed in the light most favorable to
her, we can no longer simply accept her
characterizations of what occurred. Now that the
parties have completed discovery, we have a “fullydeveloped record” to apply “to those allegations upon
a motion for summary judgment,” id., and Robinson
must present more than a “scintilla” of evidence to
support her allegations, Sylvia Dev. Corp. v. Calvert
Cty., 48 F.3d 810, 818 (4th Cir. 1995) (internal
quotation marks omitted).
There is also nothing remarkable in concluding
that some plaintiffs whose claims survive a motion
to dismiss are unable to meet their burden to survive
summary judgment. In Behrens v. Pelletier, 516 U.S.
299 (1996), for example, the Supreme Court held
that a defendant was entitled to raise the defense of
qualified immunity in more than one interlocutory
appeal—initially, after denial of a motion to dismiss,
and, subsequently, after denial of summary
judgment. The Supreme Court explained that more
than one appeal was warranted because
the legally relevant factors . . . will be
different on summary judgment than on an
earlier motion to dismiss. . . . . It is no more
true that the defendant who has

App. 18
unsuccessfully appealed denial of a motion to
dismiss has no need to appeal denial of a
motion for summary judgment, than it is
that the defendant who has unsuccessfully
made a motion to dismiss has no need to
make a motion for summary judgment.
Id. at 309.
Nothing inherent in our prior decision or the
law-of-the-case doctrine precludes our conclusion in
this appeal that Robinson has failed to meet her
burden on summary judgment. The law-of-the-case
doctrine recognizes that “when a court decides upon
a rule of law, that decision should continue to govern
the same issues in subsequent stages in the same
case.” Arizona v. California, 460 U.S. 605, 618
(1983). But it poses no bar to the assessment of past
holdings based on a different procedural posture
when, as is the case in the progression from review
of a motion to dismiss to a motion for summary
judgment, that later review expands the court’s
inquiry based on development of actual facts
underlying a plaintiff’s claims. Wiest v. Tyco Elecs.
Corp., 812 F.3d 319, 329–30 (3d Cir. 2016) (rejecting
the plaintiff’s argument that because the court had
previously held that her complaint sufficiently
alleged a claim, the district court was precluded from
granting summary judgment under the law-of-thecase doctrine and describing that argument as
resting on a “critical misapplication of the
fundamental distinction between a motion to dismiss
under Rule 12(b)(6) and a motion for summary
judgment under Rule 56”). Indeed, consistent with
this recognition, this Court’s articulation of the lawof-the-case doctrine also acknowledges that different

App. 19
facts will lead to a different legal analysis to which
the doctrine cannot apply. Sejman v. Warner
Lambert Co., 845 F.2d 66, 69 (4th Cir. 1988) (stating
that the law-of-the-case doctrine applies “unless” one
of several exceptions applies, including the
subsequent development of “substantially different
evidence”).
As the dissent acknowledges, nothing in the lawof-the-case doctrine or our prior decision compelled a
particular result in this appeal except to the extent
the facts remained the same as the allegations. Infra
at 64–67. The cases the dissent relies on to support
the doctrine’s applicability reiterate that when a
court is presented with a different record at a new
stage of the case, the law-of-the-case doctrine will no
longer constrain the court’s review. E.g., TFWS, Inc.
v. Franchot, 572 F.3d 186, 191 (4th Cir. 2009). But
only when the facts alleged in a complaint are
subsequently proven during discovery will the lawof-the-case doctrine continue to govern how the law
applies to those facts. U.S. ex rel. Oberg v. Pa.
Higher Educ. Assistance Agency, 804 F.3d 646, 665–
66 (4th Cir. 2005) (holding that the law-of-the-case
doctrine was relevant to the Court’s review because
the case’s evidence developed during discovery and
considered as part of the motion for summary
judgment “confirmed the existence of the[] facts”
previously relied on in considering the propriety of a
motion to dismiss).
Discovery produced substantially different facts
than Robinson alleged in her Complaint which
requires us to alter our understanding of the factual
underpinnings of Robinson’s claim for purposes of
summary judgment. Based on this divergence, the
law-of-the-case doctrine does not constrain our

App. 20
review of how the governing legal principles apply to
Robinson’s claim. At bottom, the evidence that
Robinson marshaled during discovery demonstrates
that Russell and Lioi’s conduct cannot support a
state-created danger substantive due process claim
and that the officers are entitled to qualified
immunity.
III.
Individuals can hold state actors liable under §
1983 for deprivations of “any rights, privileges, or
immunities secured by the Constitution,” 42 U.S.C. §
1983, including deprivations of a person’s “life,
liberty, or property, without due process of law,” U.S.
Const. amend. XIV. Because the Due Process Clause
protects individuals “against arbitrary action of
government,” with “arbitrary” in this context
encompassing “only the most egregious official
conduct,” no constitutional violation occurs where
the state actor “negligently inflicted harm.” Cty. of
Sacramento v. Lewis, 523 U.S. 833, 845–46, 49
(1998) (internal quotation marks omitted).
Moreover, the Due Process Clause “cannot fairly
be extended to impose an affirmative obligation on
the State to ensure that those interests do not come
to harm through other means.” DeShaney, 489 U.S.
at 195. And “because ‘the Due Process Clause does
not require the State to provide its citizens with
particular protective services, [state actors] cannot
be held liable under the Clause for injuries that
could have been averted had it chosen to provide
them.’” Doe, 795 F.3d at 437 (quoting DeShaney, 489
U.S. at 196–97).

App. 21
Based on this understanding of the Due Process
Clause, the Supreme Court held in DeShaney that a
county social services department had not violated a
four-year-old’s substantive due process rights by
failing to protect the child from his abusive father.
489 U.S. at 191–94. The department had received
numerous reports of abuse but failed to remove the
child from his father’s custody. Id. at 192–93. The
Supreme Court recognized that although “in certain
limited circumstances the Constitution imposes upon
the State affirmative duties of care and protection”
based on a “special relationship,” no such
relationship existed in this case because the child
was not in the State’s custody (e.g., through
“incarceration, institutionalization, or other similar
restraint of personal liberty”) when his father
harmed him. Id. at 197–200. As part of its due
process analysis, the Supreme Court observed that
the department was also not liable because, “[w]hile
the State may have been aware of the dangers that
[the child] faced in the free world, it played no part
in their creation, nor did it do anything to render
him any more vulnerable to them.” Id. at 201. “This
language in DeShaney is commonly acknowledged as
the genesis of the state-created danger doctrine.”
Robinson, 536 F. App’x at 343.
But the state-created doctrine is a “narrow”
exception to the general rule that state actors are
not liable for harm caused by third parties. Doe, 795
F.3d at 437. It applies only when the state
affirmatively acts to create or increase the risk that
resulted in the victim’s injury. Specifically, “a
plaintiff must show that the state actor created or
increased the risk of private danger, and did so
directly through affirmative acts, not merely through

App. 22
inaction or omission.” Id. at 439. A direct,
affirmative act is necessary because liability is
premised on the understanding that state actors
cannot “disclaim liability when they themselves
throw others to the lions” and that where they have
engaged in affirmative conduct that creates or
increases “the dangerous situation that resulted in a
victim’s injury,” “it becomes much more akin to a[ ]
[state] actor itself directly causing harm to the
injured party.” Pinder v. Johnson, 54 F.3d 1169,
1177 (4th Cir. 1995) (en banc). The doctrine’s
conception of an “affirmative act” is also quite
limited: “[i]t cannot be that the state commits an
affirmative act or creates a danger every time it does
anything that makes injury at the hands of a third
party more likely. If so, the state would be liable for
every crime committed by the prisoners it released.”
Id. at 1175 (internal quotation marks omitted). This
narrowly confines the scope of qualifying
“affirmative acts” to those that directly create or
increase, i.e., cause, the risk a third party posed to
the victim.
In this appeal, Robinson argues that the district
court erred because the record demonstrates that
Lioi and Russell took “affirmative acts” from which a
reasonable jury could conclude that they directly
increased the risk Williams posed to his wife.9 To
support her argument that the officers are liable for
a state-created danger, Robinson relies on the
following eight “affirmative acts” that she claims
made summary judgment inappropriate:

Robinson’s Amended Complaint also appears to have alleged
liability based on the existence of a special relationship, but she
does not rely on that ground on appeal.

9

App. 23
(1) Lioi “acted affirmatively” to free Williams
from the Eastern District station after he
could not locate the arrest warrant instead of
placing Williams under arrest without the
warrant and temporarily detaining him in
the holding cell while the search for the
missing warrant continued;
(2) Lioi “affirmatively agreed” to permit
Williams to remain free between the time
Williams tried to self-surrender and the time
of Mrs. Williams’ stabbing;
(3) Lioi wrote two letters to Williams “in an
effort to aid Williams in avoiding lawful
arrest on valid warrants”;
(4) “Lioi texted Williams regarding when it
was safe to return home without fear of
arrest and how to avoid service of his
warrant”;
(5) “Lioi prevented other officers from
attempting to arrest” Williams by not
assigning anyone to serve the arrest warrant
and not logging it into a system that would
have allowed other officers to serve it;
(6) “Russell ordered that the warrant not be
logged in with Central Records”;
(7) “Russell orchestrated the unavailability
of the warrant during” the time when
Williams appeared to self-surrender; and
(8) “Russell affirmatively ordered that
Williams not be arrested” after the warrant
was located.
Opening Br. 17–18.

App. 24
Having reviewed the record, we conclude that
Robinson’s arguments lack merit. Contrary to
Robinson’s argument and the dissent’s conclusion,
discovery did not strengthen her earlier allegations
that BCPD officers actively conspired to help
Williams avoid arrest by interfering with the
execution of his arrest warrant. Quite to the
contrary. Even viewing the evidence in Robinson’s
favor, none of the “affirmative acts” she relies on can
support a due process claim. Our conclusion follows
from a straight-forward application of the Supreme
Court’s decisions in DeShaney and Town of Castle
Rock, as well as this Court’s decisions in Pinder and
Doe.
As discussed in greater detail below, most of
Robinson’s characterizations of the record are not
supported by the record or are pure speculation.
Several of Robinson’s key allegations in her
Complaint concerning Lioi’s supposed affirmative
acts ultimately proved to be untenable. And other
distinctions between Robinson’s allegations in her
Amended Complaint and the evidence now in the
record show that her claim is mostly based on
conduct properly categorized not as legally
cognizable affirmative acts, but as nonactionable
inactions and omissions.
Equally fatal to Robinson’s claim, she has failed
to produce evidence demonstrating the requisite
causal link between the officers’ purported
“affirmative acts” and the harm that befell Mrs.
Williams. Without evidence to support the
conclusion that their conduct increased the danger
Williams posed to his wife, we can hold neither Lioi
nor Russell liable under the state-created danger
doctrine. In short, what occurred in this case is not

App. 25
the sort of conduct that the Supreme Court or this
Court has said can give rise to liability. The statecreated danger doctrine requires proof that Lioi or
Russell created the harm that befell Mrs. Williams
or directly “render[ed] [her] any more vulnerable to”
Williams. Doe, 795 F.3d at 438 (emphasis omitted)
(quoting DeShaney, 489 U.S. at 201). That is, it
requires proof that Lioi or Russell were more than
merely negligent or that they could have done more
to ensure Williams was arrested earlier, which is the
most that Robinson’s and the dissent’s view of the
record allows.
A. Lioi’s Letters and Texts to Williams Cannot
Support Liability
The record confirms that Lioi wrote two letters
at Williams’ request and responded to a few texts
Williams sent between his attempted self-surrender
Thursday evening and Mrs. Williams’ murder the
following
Monday.
Robinson,
however,
mischaracterizes those acts and draws conclusions
that the record does not support.10 These events
cannot support a state-created danger claim because
the record does not allow for the conclusion that they
created or increased the risk Williams posed to his
wife.
Before turning to the legal principles, it is
necessary to first understand what the record shows
Lioi actually did. Robinson points to the letters Lioi
wrote for Williams, which she characterizes as
This section specifically addresses Robinson’s third and
fourth “steps,” namely: that Lioi (3) wrote two letters for
Williams about the arrest warrants, and (4) texted Williams in
the days prior to Mrs. Williams’ death.
10

App. 26
giving Williams “‘get out of jail free’ cards.” Opening
Br. 27. Neither letter provides any such instruction
or request. The first letter truthfully describes the
contents of the arrest warrant, Williams’ voluntary
appearance at the Eastern District station “to turn
himself in to be processed,” and his permitted
departure when “Central Records did not have the
warrant on file.” J.A. 631. It also truthfully states
that when Lioi decided to allow Williams to leave, he
had been told that the warrant may be in the
courthouse, which was closed for the night.
The second letter accurately recounted that
another warrant issued by a different Maryland
locality sought the arrest of “a Cleaven Williams,
black male with no date of birth or any other
identifiers such as a social security number, height,
weight, etc.,” and listing an address that—to Lioi’s
understanding—had never been Williams’ address.
J.A. 632. The second letter observed that the arrest
warrant’s information was “very limited and should
not be considered to be [Williams] based on the name
alone.” J.A. 632.
A jury could not conclude from these letters that
Lioi wrote them “in furtherance of a conspiracy to
allow Williams to evade arrest . . . that ultimately
enhanced the danger to Mrs. Williams.” Infra at 68.
Both letters state facts and neither makes any
demands on a recipient or requests that anyone who
reviewed their contents not arrest Williams on either
warrant. Nor is the first letter misleading, as the
dissent suggests, as Lioi accurately described the
events leading to the decision not to arrest Williams
on the evening he attempted to self-surrender. The
“omission” of additional information about where the
warrant was eventually located has no bearing on

App. 27
Williams’ cooperation or Lioi’s decision to allow him
to leave. Similarly, the second letter simply
concludes that the warrant had few details; it does
not purport to be the result of a thorough
investigation or a final conclusion as to the proper
subject of the warrant. In short, Robinson has
provided no facts to support her continued
characterization of the letters as evidence that Lioi
“scheme[d] to secure [Williams’] freedom.” Opening
Br. 28.
Lioi’s texts cannot support liability either.
Robinson posits that Lioi “texted Williams regarding
when it was safe to return home without fear of
arrest and how to avoid service of his warrant.”
Opening Br. 18. The record does not support that
characterization of the texts. The texts instead show
that Lioi relayed factual information about the
status of the warrant11 and its possible execution
before Williams’ intended self-surrender date12 and
that Lioi encouraged Williams to “avoid” Mrs.
Williams. J.A. 559 (“I wouldn’t be alone with her. . . .
. Have a witness with you if you meet. . . . . I would
avoid her.”). Contrary to Robinson’s contention, the
texts do not reasonably suggest that Lioi was
helping Williams to “avoid[ ] his lawful arrest” or

J.A. 696–97 (responding to Williams’ question about whether
Mrs. Williams could “resc[i]nd the charges/warrant” with, “No.
She should contact the Court Comm[issioner] that she saw, but
they won’t rescind.”).
11

J.A. 559 (responding to Williams’ question about whether his
wife could “do another protection order & try 2 keep me from
the house” with, “She could. I would avoid her. She could call
the police and say u have the warrant and she is afraid of you.
It would force our hand to serve the warrant.”).

12

App. 28
otherwise endangering Mrs. Williams in any way.
See Opening Br. 30.
Nothing else the dissent points to alters this
analysis. For instance, the dissent asserts “Lioi had
never written such letters before in his twenty years
of law enforcement experience.” Infra at 60 (citing
J.A. 287–88). But Lioi never stated that he had not
previously written such letters; instead, he
responded by reflecting on Williams having been “a
community leader” who was “known to us, and one of
the key factors in everything would be is he a flight
risk, is he attempting to turn himself in, which he
did, so I think all that weighed into the – the
process.” J.A. 287. Even granting Robinson the
inference that the letters were a “first,” that fact
would not allow for any inference concerning Lioi’s
intent or to connect Lioi’s letters to Mrs. Williams.
In addition, the dissent posits that Lioi’s texts
suggest “his desire not to do his job and instead to
defer to Williams’s prearranged self-surrender
schedule.” Infra at 71. Even accepting the dissent’s
view, that would show only (1) that Lioi decided not
to serve the warrant sooner, a decision amounting to
no more than an omission or failure to act that falls
under the ambit of Town of Castle Rock, or (2) that
Lioi may have been negligent in pursuing service of
the warrant, a decision that also could not give rise
to a due process claim. See Lewis, 523 U.S. at 849
(stating that “liability for negligently inflicted harm
is
categorically
beneath
the
threshold of
constitutional due process”); Slaughter v. Mayor &
City Council of Balt., 682 F.3d 317, 321 (4th Cir.
2012) (reiterating that negligence cannot support a
due process violation).

App. 29
Regardless, neither the letters nor the texts can
support a cognizable due process claim because they
are not causally connected to Mrs. Williams’ harm.
Whatever “affirmative acts” a plaintiff relies on must
have a direct causal connection to the harm that
ultimately befell the victim. See Doe, 795 F.3d at
439; see also Gray v. Univ. of Colo. Hosp. Auth., 672
F.3d 909, 916–17 (10th Cir. 2012) (calling
“unremarkable” the proposition that a state-created
danger claim must prove “a sufficient causal link
between the danger created by an affirmative act of
the State and the harm inflicted upon the victim by
a private party”); Kaucher v. Cty. of Bucks, 455 F.3d
418, 432 (3d Cir. 2006) (“[A] specific and deliberate
exercise of state authority, while necessary to [state
a claim under this theory], is not sufficient. There
must be a direct causal relationship between the
affirmative act of the state and the plaintiff’s harm.
Only then will the affirmative act render the
plaintiff more vulnerable to danger than had the
state not acted at all.” (internal quotation marks
omitted)).
Neither Lioi’s letters nor his texts created any
danger to Mrs. Williams. Indeed, Lioi “could not
have created a danger that already existed.” See Doe,
795 F.3d at 439 (internal quotation marks omitted).
As the circumstances of the misdemeanor assault
warrant and other evidence in the record indicate,
any threat that Williams posed to his wife existed
prior to and independent of Lioi’s interactions with
Williams. Nothing in the record suggests Lioi had
any particularized reason to believe that Williams
posed an ongoing—let alone imminent—threat to his
wife; at most, he knew that probable cause
supported issuance of a misdemeanor arrest warrant

App. 30
for assaulting her in the past, which is the only
information contained in the arrest warrant. As
such, Lioi’s letters and texts did not create any
danger to Mrs. Williams.
Nor did Lioi’s letters or texts increase the risk
Williams posed to Mrs. Williams. In Doe, we held
that a state actor did not increase the risk a child
predator posed to his victims where the state actor’s
conduct placed the victims in “no worse position than
that in which [they] would have been had [he] not
acted at all.” Id. (first alteration in original) (internal
quotation marks omitted). That’s precisely the case
here. For instance, the record does not indicate that
Williams ever showed the letters to anyone, let alone
that he used them to avoid arrest. Similarly, it
would be patently unreasonable to conclude that
texts encouraging Williams not to see his wife at all,
or at least not alone, heightened any risk to her. Nor
can any viable connection be made between any
threat Williams posed to his wife and his texts to
Lioi concerning the contents of the letters. In short,
the letters and texts simply do not establish the
requisite connection between Lioi and Mrs. Williams
that would create liability under the state-created
danger doctrine. See Pinder, 54 F.3d at 1177
(providing that, to state a claim, there must be
evidence that the state actors did something “akin to
. . . directly causing harm to the injured party”).
These “acts” do not constitute the sort of direct
acts the state-created danger doctrine requires for a
state actor’s conduct to create or increase the risk
that a third party poses to a victim. As in Doe, we
conclude that the sort of “downstream, but-for
connection alleged here simply stretches the
‘affirmative acts’ concept too far.” 795 F.3d at 442.

App. 31
Consequently, they cannot support Robinson’s claim
against Lioi.
B. Russell’s Conduct Concerning the Arrest
Warrant Cannot Support Liability
The three “acts” Robinson asserts that Russell
took do not support her claim against him.13
Robinson asserts as fact that Russell “ordered that
the warrant not be logged in with Central Records”;
“orchestrated the unavailability of the warrant
during the attempted surrender”; and “ordered that
Williams not be arrested . . . even after the warrant
was found.” Opening Br. 18. But Robinson’s
characterizations of the record stretch beyond
permissible inferences to impermissible speculation.
Moreover, they do not demonstrate that Russell
engaged in the sort of affirmative acts that created
or increased any danger to Mrs. Williams as
required for a state-created danger claim.
Even assuming Russell had the warrant “pulled”
and routed to the Eastern District office, the record
contains no evidence that Russell was aware that
the warrant had not been logged into Central
Records prior to its arrival there, that he directed
that it not be logged into Central Records, or that he
instructed his officers not to attempt to arrest
This section specifically addresses Robinson’s sixth, seventh,
and eighth (in part) asserted “affirmative steps,” i.e., that
Russell (6) ordered Arroyo to divert the arrest warrant so that
it would not be logged into the Central Records system; (7)
arranged for the warrant to be in the visor of Byrd’s vehicle so
that it could not be located when Williams arrived to selfsurrender; and (8) ordered that no one arrest Williams after the
arrest warrant was located.
13

App. 32
Williams. Nor does the record contain evidence to
allow the inference that Russell “orchestrated the
unavailability of the warrant” when Williams
arrived to self-surrender on Thursday, November 13.
See Opening Br. 18. To support her view, Robinson
weaves mischaracterizations of the record with pure
speculation to contend that a jury could infer that
her allegations actually occurred. That is not a valid
means of surviving summary judgment, which
requires evidence, not unsupported conjecture. See,
e.g., Shirvinski v. U.S. Coast Guard, 673 F.3d 308,
320 (4th Cir. 2012) (rejecting plaintiff’s “attempt[ ] to
build his case through pure inference”); Hinkle v.
City of Clarksburg, 81 F.3d 416, 423 (4th Cir. 1996)
(holding a claim was “ripe for an adverse summary
judgment determination” when “it was based upon a
theory without proof” and dependent on “speculation
and the piling of inferences”); Barwick v. Celotex
Corp., 736 F.2d 946, 962 (4th Cir. 1984) (rejecting
plaintiff’s “attempt[ ] to build one vague inference
upon another vague inference to produce a factual
issue”).
By way of background, Robinson relies on a
supposed “friendly relationship” between Russell
and Williams, Opening Br. 33, pointing out that they
communicated via their cell phones throughout the
days in question and that Williams used informal
language when texting Russell. In addition, she
notes that Russell had been to Williams’ home and
met his family and had discussed a spiritual matter
with Williams in the past. These isolated parts of the
record do not support Robinson’s conclusion that the
men were more than professional acquaintances.14
The dissenting opinion also relies on Russell’s supposed
“relationship” with Williams and the fact they “spoke of
14

App. 33
Even if they did, these facts offer no information
about Russell’s conduct with respect to the warrant.
Robinson also points to a text Williams sent to
Russell on Thursday afternoon saying, “I’m running
behind. I should be there in 15,” J.A. 480, as the
basis for accusing Williams and Russell of having a
“secret meeting,” Opening Br. 34. But no evidence
suggests that such a meeting occurred, and both men
explained that the text referred to Williams
intending to self-surrender on Thursday earlier than
when he eventually arrived. Moreover, neither the
text nor even an imagined secret meeting could
demonstrate that Russell made the warrant
unavailable or did anything else regarding the
warrant; Robinson is impermissibly piling inference
upon inference to reach her desired conclusion.
Next, Robinson takes Lioi’s deposition testimony
concerning the decision to let Williams leave the
Eastern District Thursday evening and speculates
that Russell and Williams “had already agreed” to a
Tuesday surrender date because Russell “assured
that the warrant [would be] unavailable” on
Thursday. Opening Br. 34–35. That conjecture is an
unsupported reading of what Lioi said. Instead, Lioi
testified that prior to allowing Williams to leave on
Thursday evening, he ensured that Williams agreed
to return and self-surrender once the warrant was
found. Lioi knew that “Russell had communicated
personal matters.” Infra at 72. The implication from both the
dissent and Robinson overstates what the record shows, which
is that the men interacted at a handful of community events,
that Russell entered Williams’ home briefly on one occasion
during a community walk that passed by Williams’ residence,
and that they briefly discussed religion during one of those
walks because Russell was also a minister at the time.

App. 34
with [Williams] that if he turn[ed] himself [in] on a
Friday, [he] could get stuck in the system all
weekend.” J.A. 277. Williams told Lioi he wanted to
wait to turn himself in until after the weekend. Lioi
then confirmed with Russell that this would be
acceptable. Contrary to Robinson’s contention, Lioi’s
statement does not permit the inference that Russell
and Williams had previously arranged for a Tuesday
self-surrender because Russell knew (or orchestrated
that) Williams would not be able to self-surrender on
Thursday. Nor does Lioi’s statement support any
conclusion about Russell and the location of the
warrant.
Robinson further posits that Russell put the
warrant in the visor of Officer Byrd’s squad car,
where it was found several hours after Williams
attempted to self-surrender. As “proof” for that
conclusion, Robinson points to evidence that Russell
saw Officer Byrd with the warrant earlier, that Byrd
denied having put the warrant in the visor, and that
Russell suggested Lioi search there for the warrant.
The conclusion Robinson draws from the gaps
between these three fragments leaps well beyond the
bounds of permissible inferences and crosses into
rampant speculation. Although Robinson is entitled
to all reasonable inferences in her favor, we cannot
ignore undisputed evidence that contradicts her
allegations. Russell explained that he suggested to
Lioi several places where the warrant might have
been, based on his past experience and knowledge of
where officers habitually put paperwork. J.A. 456–
58. What’s more, Tugya stated that the warrant was
eventually located based on specific information
Byrd provided to them via telephone Sunday

App. 35
evening.15 No jury could conclude that Russell
orchestrated the warrant’s unavailability on
Thursday evening when the evidence shows that
Russell provided Lioi with general information about
the warrant’s whereabouts and that same evening
Byrd confirmed with specific information about its
location.
Nor do any of the dissent’s additional
considerations connect the dots between record
evidence and facts from which a jury could hold
Russell liable. For instance, the dissent overstates
what could be reasonably inferred from Byrd’s
inability to remember the details of her role in these
events. She testified only that she did not “recall”
driving to Williams’ residence to attempt to arrest
him; she was not sure what had happened to the
paperwork on Williams; and she did not know prior
to her deposition that the warrant was found in the
visor of her patrol car. J.A. 106. Byrd’s testimony
does not implicate Russell in anything, nor does it
give rise to the inference that he took the paperwork
The dissent faults us for relying on Tugya’s affidavit. But
“materials capable of being reduced to admissible evidence at
trial” can be the basis for summary judgment even though
“hearsay, like other evidence inadmissible at trial, is ordinarily
an inadequate basis for summary judgment.” U.S. Dep’t of
Hous. & Urban Dev. v. Cost Control Mktg. & Sales Mgmt. of
Va., Inc., 64 F.3d 920, 926 & n.8 (4th Cir. 1995); see Fed. R. Civ.
P. 56(e). To the extent Tugya’s affidavit describes what he did
during the search for the missing warrant and what effect his
conversation with Byrd had on his actions and directions that
evening, it is not hearsay and is therefore properly considered.
See Fed. R. Evid. 801(c); see also United States v. Safari, 849
F.2d 891, 894 (noting that a statement is not hearsay if it is
offered to prove knowledge, or to show the effect on the
listener).
15

App. 36
from Byrd and hid it in her patrol car. Simply put, a
witness’s statement that she does not know that
something happened or how it happened is not
affirmative evidence that something else happened
or how.
This commonsense conclusion is particularly apt
given the additional evidence in the record that fills
in gaps in Byrd’s recollection in a way that
contradicts Robinson’s speculation as to Russell’s
conduct. Specifically, Tugya’s affidavit states that
when he called Byrd during the Thursday evening
search for the warrant, she advised that she had put
the warrant in the visor of her patrol car earlier in
the day, that he tracked down which patrol car she
had used, and that officers found the warrant. Thus,
the record evidence shows that Russell’s
conversation with Lioi led officers to Byrd and
eventually to the discovery of the warrant. No
reasonable jury could conclude in the face of this
evidence that Russell had orchestrated the warrant
being unavailable when Williams’ self-surrendered
or that Russell conspired to help Williams to evade
arrest.
To bolster its conclusion that Russell could be
held liable, the dissent takes certain statements out
of context to create the illusion that Russell’s
willingness to allow Williams to self-surrender was
unprecedented. But the record demonstrates that
Lioi estimated 15 to 20 people a year would selfsurrender in the Eastern District, and Russell
agreed that sounded right. J.A. 468. And while
Russell admitted that “it could have been the only
time” at the Eastern District that someone called
and said he would self-surrender “more than 24
hours after the call,” he immediately stated that

App. 37
“during [his] tenure, that has happened not an
enormous amount, but it has happened before.” J.A.
469. Moreover, Russell and Lioi stated repeatedly
that the turn-ups revealed that Williams was not
staying at his residence; that they did not know his
precise
whereabouts;
that
they
repeatedly
encouraged him to turn himself in; and that they
wanted to keep him communicating and cooperating
with them rather than go silent, so they were willing
to have him return to self-surrender.
To recap, the record demonstrates at most that
Russell had the arrest warrant “pulled” and routed
to the Eastern District. But the record does not
support either Robinson’s or the dissent’s remaining
characterizations of Russell’s behavior during the
events in question. When comparing this proper
view of the record against what is required to
survive summary judgment, Robinson has not
proffered sufficient evidence to show that a jury
could find that Russell’s conduct created or increased
any danger to Mrs. Williams. Russell could not
create a pre-existing danger. See Doe, 795 F.3d at
439. Nor would his “act” of pulling the warrant to the
Eastern District be the sort of conduct that could
render him liable under the state-created danger
theory. Not every act that could possibly “make[]
injury at the hands of a third party more likely”
gives rise to liability, only acts that are “more akin to
. . . directly causing harm” to Mrs. Williams would do
so. Pinder, 54 F.3d at 1175, 1177. Russell’s decision
had only the sort of “downstream, but-for connection
[that] simply stretches the ‘affirmative acts’ concept
too far.” Doe, 795 F.3d at 442. As such, this cannot
be the basis of a state-created danger due process
claim against Russell.

App. 38
C. Lioi and Russell’s Decisions to Allow
Williams to Leave the Eastern District Office
and Self-Surrender “After the Weekend”
Cannot Support Liability
What remains is Robinson’s reliance on Lioi and
Russell’s decisions relating to Williams’ attempted
and agreed-to self-surrenders.16 Given the evidence
that developed at discovery, Robinson’s argument
concerning these events merely recharacterizes
inactions or omissions related to executing a
misdemeanor arrest warrant, conduct that makes
this case indistinguishable from Town of Castle
Rock, DeShaney, Pinder, and Doe.
Given the “narrow limits . . . to establish § 1983
liability based on a state-created danger theory,” it is
unsurprising that plaintiffs often attempt to
recharacterize
inactions
and
omissions
as
affirmative acts to satisfy their pleading and proof
obligations. Doe, 795 F.3d at 439. What is more, we
have previously cautioned that “courts should resist
the temptation” to accept plaintiffs’ attempts to
“artfully recharacterize[ ]” inaction as action. Pinder,
54 F.3d at 1176 n.*.

This discussion relates to Robinson’s first, second, fifth, and
eighth (in part) “affirmative acts,” namely: that Lioi (1) allowed
Williams to leave the Eastern District station instead of
detaining him when the warrant could not be readily located;
(2) allowed Williams to self-surrender after the weekend even
though the arrest warrant was located early Friday morning;
(5) did not assign officers to execute the arrest warrant once it
was located and did not return the arrest warrant to Central
Records for logging; and that Russell (8) allowed Williams to
self-surrender after the weekend even though the arrest
warrant was located early Friday morning.
16

App. 39
In Pinder, we observed that a plaintiff brought
“purely an omission claim” when she argued that a
police officer had affirmatively acted to enhance the
danger posed by her ex-boyfriend when the officer
reassured her that the ex-boyfriend would be “locked
up overnight,” but then decided to charge the exboyfriend with less serious offenses that resulted in
his immediate release. Id. at 1172, 1176. That
decision proved fatal, as it allowed the ex-boyfriend
to return to the plaintiff’s home and set it on fire,
resulting in the deaths of the plaintiff’s three
children. Id. at 1172.
In analyzing the plaintiff’s state-created danger
claim, we explained that “[n]o amount of semantics
can disguise the fact that the real ‘affirmative act’
here was committed by” the ex-boyfriend, not by the
officer. Id. at 1175. “[T]he state did not ‘create’ the
danger, it simply failed to provide adequate
protection from it,” meaning that, at most, the state
actors “stood by and did nothing when suspicious
circumstances dictated a more active role.” Id.
(internal quotation marks omitted). We held that the
officer’s conduct could not support a claim and
further cautioned that were we to accept the
plaintiff’s definition of an “affirmative act,” “every
representation by the police and every failure to
incarcerate would constitute ‘affirmative actions,’
giving rise to civil liability.” Id.
A decade after our decision in Pinder, the
Supreme Court reiterated that “the benefit that a
third party may receive from having someone else
arrested for a crime generally does not trigger
protections under the Due Process Clause, neither in
its
procedural
nor
in
its
‘substantive’
manifestations.” Town of Castle Rock, 545 U.S. at

App. 40
768. As often occurs in this type of case, Town of
Castle Rock arose out of “horrible” circumstances—a
woman obtained a restraining order against her
husband, but the order gave him the right to visit
the home to have limited interaction with the
couple’s three children on alternating weekends and,
“upon reasonable notice,” allowed for a “midweek
dinner visit.” Id. at 751–52 (internal quotation
marks omitted). Without any notice or coordination
with his wife, the husband took his daughters from
the home early on a weekday evening. Id. at 753.
When she discovered their absence, the wife called
the police and asked them to enforce the restraining
order. Id. The police “refused to do so,” telling her to
wait until 10:00 p.m. to see if the husband returned
the girls home. Id. (internal quotation marks
omitted). She called the police again at 10:00 p.m.
because they had not returned, and the police told
her to wait until midnight. Id. She called a third
time shortly after midnight, then went to her
husband’s apartment and found it empty, called the
police again, and was told to wait for a police officer
to arrive. Id. When no officer arrived, she went to
the police station to file a report. Id. at 753–54. “The
officer who took the report made no reasonable effort
to enforce the [restraining order] or locate the three
children. Instead, he went to dinner.” Id. at 754
(internal quotation marks omitted). About two hours
later, the husband appeared at the police station and
opened fire. Id. After the husband was killed, police
discovered that he had already murdered his three
daughters. Id.
The Supreme Court rejected the wife’s claim that
the police officers violated the Due Process Clause by
“fail[ing] to respond properly to her repeated reports

App. 41
that her estranged husband was violating the terms
of a restraining order.” Id. at 751. It observed that,
despite the language mandating enforcement of the
restraining order, “[a] well established tradition of
police discretion has long coexisted with apparently
mandatory arrest statutes.” Id. at 760. The Supreme
Court noted that even if enforcement was
mandatory, “that would not necessarily mean that” a
private citizen has an “entitlement” to the
enforcement of such an order. Id. at 764–65. And, in
any event, the Court concluded that any such right
under state law would not necessarily “constitute a
‘property’ interest for purposes of the Due Process
Clause.” Id. at 766. Consequently, the wife “did not,
for purposes of the Due Process Clause, have a
property interest in police enforcement of the
restraining order against her husband.” Id. at 768.
In so holding, the Court cautioned that the
Fourteenth Amendment should not be treated “as a
font of tort law.” Id. (internal quotation marks
omitted); see also Slaughter, 682 F.3d at 323
(discussing the dangers of constitutionalizing
ordinary state tort claims).
At its core, Robinson’s claim suffers the same
fundamental problem identified in Town of Castle
Rock, DeShaney, Pinder, and Doe—an attempt to
turn inactions and omissions into affirmative acts
and to convert what might be a basis for state tort
liability into a federal constitutional violation. As the
Supreme Court recognized in Town of Castle Rock,
even mandatory language in a temporary restraining
order—or, here, an arrest warrant—does not strip
police officers of enforcement discretion. When Lioi
and Russell allowed Williams to self-surrender, they
were exercising the long tradition of police discretion

App. 42
concerning the circumstances of enforcing a
misdemeanor arrest warrant. See Town of Castle
Rock, 545 U.S. at 760–61. Exercising this sort of
routine police discretion does not give rise to a statecreated danger. Id. To hold otherwise would turn the
thousands of instances where the police agree to
allow a charged individual to self-surrender into a
conspiracy to evade arrest. No precedent
countenances such a reading.
The record reveals the rest of Lioi and Russell’s
conduct is properly characterized as inaction or
omission. For instance, Robinson challenges Lioi’s
failure to make different decisions when the warrant
could not be located after Williams attempt to selfsurrender. She further seeks to hold both officers
liable for failing to execute the arrest warrant earlier
rather than allowing Williams to self-surrender
later. Neither of these claims is any different than
the claims rejected as mere failures to act on the
abuse reports in DeShaney and on the failure to
enforce the restraining order in Town of Castle Rock.
As we observed in Pinder, the state does not
“commit[ ] an affirmative act [for purposes of the
state-created danger doctrine] . . . every time it does
anything that makes injury at the hands of a third
party more likely,” and the Due Process Clause does
not require state actors to protect individuals from
the harms they face from third parties. 54 F.3d at
1175 (internal quotation marks omitted); accord
Estate of Smithers ex rel. Norris v. City of Flint, 602
F.3d 758, 764 (6th Cir. 2010) (holding police officers
not liable under state-created danger doctrine where
they arrested an individual and allowed her to leave
rather than detaining her on that charge because
that exercise of discretion “did not constitute an

App. 43
affirmative act” and did not increase the danger to
the victims); Burella v. City of Phila., 501 F.3d 134,
146–47 (3d Cir. 2007) (holding police officers not
liable under state-created danger doctrine where
they did not enforce a court order or follow state law
requiring the perpetrator’s arrest because what the
plaintiff “actually contend[ed] [was] that the officers
failed to act,” which is not cognizable).
The affirmative act that caused Mrs. Williams’
injury was Williams’ decision to stab her; “[n]o
amount of semantics can disguise [that] fact.”
Pinder, 54 F.3d at 1175; see Doe, 795 F.3d at 441
(holding that a state actor’s decision not to report a
known concern is the same as an “officer’s decision
not to file . . . more serious charges,” both of which
constitute nonactionable omissions). In short, these
circumstances do not give rise to liability under the
Due Process Clause. Notably, neither Robinson nor
the dissenting opinion cites a single case where an
officer’s failure to serve a misdemeanor arrest
warrant or decision to allow an individual to selfsurrender
constituted
an
“affirmative
act”
establishing liability under the state-created danger
theory. Nor could they do so, as such acts fail to meet
the high standard of being “akin to [the state] actor
itself directly causing harm to” Mrs. Williams. Cf.
Pinder, 54 F.3d at 1177.
Our reliance on Town of Castle Rock and
conclusion that many of Robinson’s arguments are
based on facts that are properly characterized as
omissions or failures to act do not constitute an
“about-face,” infra at 64, from our prior decision. We
previously recognized the Supreme Court’s holding
in that case that police officers have discretion in
such enforcement and service decisions and cannot

App. 44
be liable for exercising that discretion because
individuals do not have a property interest in such
police enforcement. Robinson, 536 F. App’x at 345.
We held that Robinson’s allegations were
distinguishable from Town of Castle Rock, however,
because “Lioi’s alleged conduct . . . was not confined
to a failure to execute the arrest warrant” given that
Robinson alleged that he “affirmatively acted to
interfere with execution of the warrant by conspiring
with Cleaven Williams to evade capture and remain
at large.” Id. (emphases added). But after discovery,
Robinson has marshaled evidence supporting only
conduct that is confined to a failure to execute the
warrant.
For example, Robinson has presented no
evidence to support her allegation that Lioi (or
Russell) conspired with Williams to evade arrest by
preventing the “proper” domestic violence unit from
serving the warrant. To the contrary, the Eastern
District officers had the authority to arrest Williams
and were responsible for the neighborhood where
Williams lived. And while the Complaint alleged
that Lioi (or Russell) warned Williams about the
existence of the arrest warrant, the record now
shows that Williams contacted Russell about its
possible existence. The Complaint also alleged BCPD
officers feigned attempts to serve the arrest warrant,
but the record contains no such evidence. And
perhaps most importantly, the record lacks evidence
to substantiate the Complaint’s allegation that Lioi
lied about not knowing where the warrant was on
the evening of Williams’ attempted self-surrender or
that he falsified information to avoid having to
arrest Williams that night. None of those allegations
in the Complaint, which were the subject of the

App. 45
motion to dismiss and our prior decision, are borne
out by evidence at the summary judgment stage.
Instead,
Robinson
has
presented
only
recharacterizations of acts that amount to a simple
failure to arrest: Lioi allowed Williams to leave the
Eastern District rather than detaining him until the
warrant—which was in fact missing and which he
had been told may be at a location that was closed
for the night—was found; that Lioi and Russell did
not aggressively pursue Williams’ arrest after the
warrant was located; and that they agreed to allow
him to self-surrender after the weekend. For the
reasons stated, all of those “acts” are appropriately
characterized as omissions and failures to act, not
the sort of affirmative acts originally alleged that
would distinguish this case from Town of Castle
Rock, DeShaney, Pinder, and Doe.
Robinson’s arguments concerning these events
fail for the additional reason that none of Lioi’s or
Russell’s decisions occurred in “the context of
immediate interactions between the [state actor]
and” Mrs. Williams. See Doe, 795 F.3d at 441
(alteration in original) (internal quotation marks
omitted). In Pinder, this Court cautioned that not
“every representation by the police and every failure
to incarcerate . . . constitute[s] [an] ‘affirmative
action[ ],’ giving rise to civil liability.” 54 F.3d at
1175. We concluded that the state’s conduct
constituted a “fail[ure] to provide adequate
protection from” a third party’s danger, which is not
cognizable, even though the officer in that case
explicitly reassured the plaintiff that he would
charge the ex-boyfriend with an offense that would
keep him detained overnight and then failed to do so.
Id.

App. 46
Here, no evidence shows that Mrs. Williams or
anyone else on her behalf ever approached Lioi or
Russell to seek protection from her husband. And
the arrest warrant, which simply charged Williams
with second-degree assault and named Mrs.
Williams as the victim, would have provided scant
additional information to a reviewing officer. J.A.
764. Contrary to the dissent’s assertion, there’s no
basis to believe that the officers knew that Mrs.
Williams was “afraid” of her husband, but even that
would not be enough on its own to establish liability
for decisions based on that knowledge. See Pinder,
54 F.3d at 1172 (holding no liability under the statecreated danger doctrine for the officer’s conduct
reassuring the plaintiff of her safety and charging
the former boyfriend on lesser charges than he’d
promised after having responded to a domestic
disturbance call and hearing the plaintiff express
fear for herself and her children in light of the
boyfriend’s abusive and violent conduct and death
threats that occurred on the same night). The lack of
direct contact between the victim and the officers
prevents any conclusion that the officers
affirmatively acted and thereby increased the danger
to Mrs. Williams. Indeed, this case involves almost
no personal knowledge on the part of Lioi or Russell
that Williams posed a threat—let alone an ongoing,
immediate, or increasingly violent threat—toward
Mrs. Williams. In that regard, it is akin to Doe,
where the record did not show that the defendant
met or spoke with the plaintiffs and he “could only
speculate that the . . . allegations were true and that
[the third party] would pose future danger” to the
plaintiffs. 795 F.3d at 441. We observed that this
fact—which is also present in this case—meant that

App. 47
the case “st[ood] on weaker ground than” the
DeShaney claim, where the defendants “knew the
child victim and were aware of the specific danger
the father posed to him.” Id. at 441–42. Even in
Pinder, where the defendant had also spoken
directly with the plaintiff and had specific and
immediate knowledge of the risk the third party
posed to the plaintiff and her children, the defendant
was not liable. 54 F.3d at 1172. Accordingly, even in
the face of much closer interactions between the
plaintiff (or victim) and the defendant(s), there was
no liability. Here, Lioi and Russell had no
“immediate interactions” with Mrs. Williams, so this
case is on even weaker ground. Id. at 1176 n.*.
Lastly, we note that the record also lacks
evidence demonstrating the requisite causal link to
Mrs. Williams’ death. As the district court noted, the
officers proffered an expert witness who opined,
given his experience regarding arrests made on the
charges against Williams and his background, that
Williams would have been free well before Monday
afternoon and could have committed the offense even
if he were detained when he attempted to selfsurrender or if he were arrested earlier. J.A. 128.
Williams would have been arrested and detained for
only a limited time, then released pending further
proceedings. Moreover, there’s evidence that even if
Williams was not aware of his wife’s location at all
times during the events in question, he did know
where she was at other times besides her courthouse
appearance. E.g., J.A. 818, 834. Accordingly, he
could have committed the crime on more than one
occasion.
Because the evidence concerning these events
does not support Robinson’s characterization of them

App. 48
as “affirmative acts” creating or increasing a risk to
Mrs. Williams, the record does not support a claim
under the state-created danger doctrine.
IV.
The above analysis demonstrates why Robinson
failed to come forward with sufficient evidence to
support her claim that Mrs. Williams’ constitutional
rights were violated under the state-created danger
theory of liability. That same analysis conclusively
demonstrates why Lioi and Russell are also entitled
to qualified immunity, which “shields government
officials from liability for civil damages, provided
that their conduct does not violate clearly
established statutory or constitutional rights within
the knowledge of a reasonable person.” Lawson v.
Union Cty. Clerk of Court, 828 F.3d 239, 249 (4th
Cir. 2016). Because the evidence was insufficient to
support a finding that Lioi and Russell violated Mrs.
Williams’s constitutional rights, it follows that the
district court properly concluded that they were
entitled to qualified immunity.
Nonetheless, even if the facts proven during
discovery set out a constitutional violation, Lioi and
Russell would still have been entitled to qualified
immunity because that right was not clearly
established. Once again, we note that our
consideration of this legal question is governed by
the changes in the facts developed during discovery
as opposed to those that had been alleged in
Robinson’s Complaint. We previously affirmed the
denial of qualified immunity at the motion to dismiss
stage because we accepted Robinson’s allegations
concerning Lioi’s conduct, including the allegations

App. 49
that Lioi actively interfered with the execution of the
warrant by lying about not being able to find it on
the evening Williams attempted to self-surrender,
feigned the BCPD’s efforts to arrest Williams, and
conspired with him to remain free despite multiple
opportunities to arrest him. Based on those
allegations we concluded that
in 2008, a reasonable police officer in Lioi’s
position would have known that a law
enforcement officer affirmatively acting in a
conspiracy with a third party to avoid arrest
on assault charges could give rise to a
constitutional violation when the third party
acts in furtherance of the conspiracy to
injure another person.
Robinson, 536 F. App’x at 347.
As already described at length, the evidence does
not allow for the conclusion that Lioi or Russell were
lying about the warrant being missing or their
inability to serve the warrant. Instead, the record
shows that—at most—they agreed to allow a
cooperating individual that posed no known
immediate risk to self-surrender. And it was not
clearly established in 2008 that a decision to allow
self-surrender rather than aggressively serve a
misdemeanor arrest warrant would serve as a basis
of liability under the state-created danger doctrine.
Indeed, no case then or now could be taken to stand
for that proposition.
“A right is clearly established when the contours
of the right are sufficiently clear that a reasonable
officer would understand that what he is doing
violates that right.” Pinder, 54 F.3d at 1181. To be

App. 50
sure, DeShaney and other cases have acknowledged
the existence of the state-created danger theory of
liability to establish a due process violation. But in
determining whether a right is clearly established,
courts do not look at the right “at its most general or
abstract level, but at the level of its application to
the specific conduct being challenged.” Wiley v.
Doory, 14 F.3d 993, 995 (4th Cir. 1994). Although
there does not need to be a case identical to the facts
of a particular case for the right to be clearly
established, there must be a reasonable correlation.
Edwards v. City of Goldsboro, 178 F.3d 231, 251 (4th
Cir. 1999). Put simply, a reasonable officer must
have been able to ascertain the “apparent”
unlawfulness of his conduct “in light of the preexisting law.” Pinder, 54 F.3d at 1173.
Applying these principles here, while a
reasonable officer in 2008 would have notice that the
state-created danger theory existed in the abstract,
no Supreme Court or Fourth Circuit case law would
have described when its requirements had been met
in any particular set of circumstances. Instead,
officers would have recognized multiple cases setting
forth the general framework that, to be held liable
under this doctrine, an officer had to engage in
conduct that created or increased “the dangerous
situation that resulted in a victim’s injury” such that
the circumstances were “much more akin to an actor
. . . directly causing harm to the injured party.”
Pinder, 54 F.3d at 1177. But they would have
encountered no cases discussing the state-created
danger doctrine in the context of serving an arrest
warrant. Nor would they have encountered any cases
holding an officer liable under the doctrine for harm
that arose from an officer’s decision to allow a party

App. 51
named on an arrest warrant to self-surrender. The
absence of case law in this area coupled with the
Supreme Court’s statements in Town of Castle Rock
regarding police discretion executing a warrant
means that Lioi and Russell did not have “fair
warning that their conduct was unconstitutional”
even if we were to conclude that a violation occurred
in this case. Iko v. Shreve, 535 F.3d 225, 238 (4th
Cir. 2008). In sum, as the district court held, “[a]
reasonable police officer in Lioi and Russell’s
position could not have known that the failure to
guarantee [Williams’] arrest on a misdemeanor
warrant prior to [the date of his wife’s death] would
violate [Mrs. Williams’] constitutional rights.”
Robinson, 2017 WL 2937568, at *10. Lioi and
Russell are entitled to qualified immunity for this
additional reason as well.
V.
Both Robinson and the dissenting opinion
contrive to create a genuine issue of material fact
through the officers’ omissions and “mere
speculation or the building of one inference upon
another,” Barwick, 736 F.2d at 963. To survive
summary judgment, Robinson had to “do more than
present a scintilla of evidence in [her] favor.” Sylvia,
48 F.3d at 818 (internal quotation marks omitted).
She had to present “sufficient evidence such that
reasonable jurors could find by a preponderance of
the evidence” for her. Id. (internal quotation marks
omitted). But Robinson’s version of events is not
supported by sufficient evidence to permit a
reasonable jury to conclude that Lioi or Russell
undertook any affirmative acts that would support

App. 52
liability for a state-created danger substantive due
process claim. See id. As such, she has not shown
that the district court erred in granting the officers
summary judgment.17
For the reasons stated, the judgment of the
district court is
AFFIRMED.
GREGORY, Chief Judge, dissenting:
In our previous decision in this case, we held
that Appellants had sufficiently alleged that
Appellee Deputy Major Daniel Lioi is liable for
violating Veronica Williams’s due process rights
because he acted affirmatively to create or enhance
the danger that she faced at the hands of her
husband. Although Appellants have now come
forward with evidence to support their section 1983
due process claim, the majority has abandoned our
prior ruling. The majority now takes the view that
the police officers’ conduct amounts, as a matter of
law, to nothing more than a failure to act, which is
not actionable under a state-created danger theory.
In so holding, the majority not only dismisses the
law of this case but also takes great pains to

Although Robinson’s appeal centers on the § 1983 claim, she
also challenges the district court’s decision to grant summary
judgment to Lioi and Russell on her state claims of gross
negligence, wrongful death, and survival. Those claims are
meritless, and we affirm the district court’s judgment on them
for the reasons set out in the district court’s opinion. Robinson,
2017 WL 2937568, at *11–14.
17

App. 53
construe the evidence that has since been developed
in the improper light.
At bottom, Appellants have shown that Deputy
Lioi and Major Melvin Russell took affirmative steps
to allow Cleaven Williams—a community leader and
their acquaintance—to evade arrest until a date
deemed most convenient by him, a date after he was
able to fatally stab his wife. Although the officers did
not know that Williams would kill his wife, they
were well aware of the domestic assault charges
pending against him and that his wife was afraid of
him. The officers’ conduct amounts to more than
mere negligence, and a jury could find true the
complaint’s allegations—allegations we have said
amount to a constitutional violation. Therefore, I
respectfully dissent.
I.
Before I explain my disagreement with the
majority, I believe it is important to review the facts
of this case in the light most favorable to Appellants,
the parties that did not move for summary
judgment.
In 2008, Williams resided in Baltimore with his
wife, Veronica Williams. Williams served as the
president of the Greater Greenmount Community
Association. J.A. 241. Through his affiliation with
the Association, Williams met members of the
Baltimore City Police Department’s Eastern District,
including Deputy Lioi and Major Russell. J.A. 439,
444. Major Russell and Williams interacted with
each other during community meetings and
community walks. J.A. 441. The two men also
exchanged text messages at times. J.A. 453.

App. 54
Williams and his wife were having problems.
During one community event, Williams confided in
Major Russell that he had concerns about the fact
that his wife was a Jehovah’s Witness and was
instilling her beliefs in their children. Id. Things
apparently escalated, and in October 2008, Williams
pinned down his wife and cut off her hair. The
following month, Mrs. Williams sought a protective
order against her husband based on the October
assault.
At some point during the weekend of November
8, 2008, Williams called Major Russell to determine
whether “it was actually true” that his wife had “got
some papers on him.” J.A. 706. On November 9, Mrs.
Williams obtained a temporary protective order
against her husband, and a warrant issued for
Williams’s arrest.
Officer Jose Arroyo was dispatched from the
Eastern District to pick up the arrest warrant from
the Court Commissioner’s office. J.A. 549, 580, 585.
Although police department policy requires that an
arrest warrant be forwarded directly from the Court
Commissioner to Central Records for processing,
Arroyo did not take the warrant to Central Records
and instead returned directly to the Eastern District.
J.A. 581, 589. Arroyo could not recall if his superior
officers, including Deputy Lioi and Major Russell,
ordered him to bypass the Court Commissioner. J.A.
578–79. Nonetheless, Arroyo testified in deposition
that the only circumstances under which he would
not have taken a warrant to Central Records were
(1) if he were ordered not to, or (2) if an officer had
the suspect in custody already and was transporting
the suspect to Central Booking. J.A. 577–78. It is

App. 55
undisputed that no police officer had Williams in
custody at the time.
On Monday morning, November 10, Williams
sent Major Russell a text message saying, “Call me,
major.” J.A. 99. Also that day, Officer Adrienne
Byrd—the officer assigned to Williams’s area—
approached Major Russell about the warrant, which
she had in hand. J.A. 445, 450, 707. Although Major
Russell was not typically informed about every
warrant that issued in his district, Officer Byrd
“thought it was important to bring [this warrant] to
[his] attention.” J.A. 450. Major Russell “glossed over
the warrant, read the warrant,” and “saw it was for
[Williams].” J.A. 451.
The next day, Tuesday, November 11, Major
Russell called Williams and told him that he should
turn himself in, but to not “come in later in the
week, like on a Friday or something, because you
don’t want to sit in jail the entire weekend, but you
need to get in as soon as possible.” J.A. 707. This
advice was far from typical. J.A. 277–78.
On Wednesday, November 12, Williams texted
Major Russell, saying, “I would really like 2 do it on
Tuesday . . . I am still trying to get capital . . . I only
have 3000 right now . . . I have some favors coming
though.” J.A. 100. Later that afternoon, however,
Major Russell told Deputy Lioi that Williams was
“scheduled” to turn himself in the following day,
Thursday, November 13, at 9:00 p.m. J.A. 249. Major
Russell was working the day shift, which ended
around 5:00 p.m., and it was Deputy Lioi who
worked the night shift. J.A. 248–49. According to
Deputy Lioi, Major Russell instructed him to be at
the Eastern District when Williams came to turn
himself in “to make sure the process [went] well.”

App. 56
J.A. 288. Major Russell’s request was unusual;
Deputy Lioi had not arrested anyone “since the late
‘90s.” J.A. 467. Yet, because Williams was a
community leader, Major Russell wanted his secondin-command to be there. Id. In fact, Deputy Lioi
interpreted Major Russell’s request for his presence
to mean that he was to ensure the process went
“smoothly” for Williams because Williams was a
community leader, he “was different.” J.A. 288.
Meanwhile, between November 9 and 13,
Eastern District officers may have attempted to
serve the arrest warrant at Williams’s house during
unannounced “turn-ups.” J.A. 707. Major Russell
testified that he drove by Williams’s home one night
but that it was “blacked out, darked out.” J.A. 451.
Deputy Lioi acknowledged that it was possible the
turn-ups were not conducted. J.A. 341. And Officer
Byrd—whose job it was to serve the warrant—could
not recall ever going to Williams’s area to serve the
warrant. J.A. 106, 451. In fact, after she had brought
the warrant to Major Russell’s attention on
November 10, “[i]t was, like [she] had the paperwork
in [her] hand, and then the paperwork just
disappeared. Someone took it from [her].” J.A. 108.
On November 13, at approximately 1:00 p.m.,
Williams sent Major Russell a text message
advising, “I am running bhind. I should b there n
15.” J.A. 101. Major Russell responded, “K.” Id.
When asked in deposition about this text exchange,
Major Russell answered that he believed Williams
was referencing his intent to turn himself in during
Major Russell’s shift. J.A. 480. As Major Russell
explained, he did not meet with Williams, or make
any arrangement to meet with Williams, apart from
Williams’s self-surrender. J.A. 481.

App. 57
Williams, in fact, did not appear at the Eastern
District in the afternoon of November 13. Rather, he
arrived at the district around 9:00 p.m. on that day.
J.A. 257. Deputy Lioi—who was certain the warrant
had issued—called Central Records and was told
they did not have the warrant. J.A. 257–58. This was
the first time in Deputy Lioi’s twenty-year law
enforcement career that a warrant existed for
someone whom Central Records was unable to locate
in the system. J.A. 289–90. Deputy Lioi then began a
brief search for the warrant. J.A. 562. He contacted
the Court Commissioner, the North Avenue
Courthouse, and the Baltimore City Sheriff’s Office.
Id. Deputy Lioi was told by the Court Commissioner
that a warrant had issued and could be at the
courthouse, which was closed for the night. J.A. 334,
562, 631. Deputy Lioi also left a voicemail message
for Major Russell. J.A. 268. Deputy Lioi had no
doubt that the warrant existed and could have
arrested Williams without the physical warrant. J.A.
234, 258. And although Central Booking would not
put Williams in a cell without the physical warrant,
the Eastern District had a “hot box” in which Deputy
Lioi could have detained Williams for up to eight
hours while “every absolute effort was made to locate
the warrant” or overnight until the courthouse
opened the next morning. J.A. 252, 456–57.
Deputy Lioi, however, did not hold Williams in
the hot box. Instead, he allowed Williams to wait in
a public “desk area” of the station. J.A. 259–60. And
rather than make “every absolute effort” to locate
the warrant, Deputy Lioi searched for the warrant
for a mere 20 to 30 minutes and, after not
immediately finding it, let Williams leave the
precinct. He told Williams that officers would contact

App. 58
him after the warrant was located and would then
either “have him picked up” or arrange for Williams
to turn himself in. J.A. 257–58. Deputy Lioi did not
ask Williams about where he was staying or
otherwise confirm that officers would be able to
locate him after the warrant was found.
After Deputy Lioi let Williams leave, Major
Russell returned his call. J.A. 268. Deputy Lioi
explained to Major Russell that Williams had come
to the station and that Deputy Lioi let him leave
because he could not locate the warrant. Id. Major
Russell then told Deputy Lioi that the warrant had
been “pulled.” Id. Major Russell also suggested that
Deputy Lioi search Officer Byrd’s patrol car. J.A.
456, 458. Deputy Lioi called Officer Byrd, as Major
Russell had told Deputy Lioi that she had the
warrant. Id. Officer Byrd recalled receiving
paperwork for Williams from either her supervisor
or the person giving “roll call.”1 J.A. 105. However,
as described earlier, she could not recall what
happened to that paperwork, only that someone had
taken it from her. J.A. 108.2 The warrant was found
As Officer Byrd explained, “when you are in roll call, they give
you like the information that’s on your post.” J.A. 105.

1

The majority cites to an affidavit of Sergeant Todd Tugya that
recounts the details of a conversation Sergeant Tugya had with
Officer Byrd during the search for the warrant. Maj. Op. at 9.
Those statements are inadmissible hearsay. See Fed. R. Evid.
802. Although the majority suggests that the statements are
admissible to show the effect of Officer Byrd’s remarks on
Sergeant Tugya’s search for the warrant, Maj. Op. at 34 n.15,
the majority cites to the statements for their truth—that
Officer Byrd had the warrant, had attempted to serve it, and
had left it in the visor of her patrol car, id. at 9. Because of this,
I do not believe that an exception to the rule against hearsay
applies, and the majority improperly considers Sergeant
2

App. 59
in the window visor of Officer Byrd’s patrol car in the
early morning hours on Friday, November 14, about
two hours after Williams left the station. J.A. 269,
283.
Rather than immediately contact Williams after
the warrant was found, Deputy Lioi did not speak
with Williams until after 7:00 p.m. on that day—over
twelve hours later. J.A. 284. Williams asked if he
could turn himself in after the weekend. J.A. 277.
Williams explained to Deputy Lioi that he had “some
issues,” including that his mother was moving out of
town. Id. Williams was concerned that, as he had
been warned by Major Russell, if booked on Friday,
he could be in custody all weekend. Id. Deputy Lioi
conferred with Major Russell, who confirmed that
“after the weekend’s fine.” Id. Deputy Lioi then
arranged for Williams to self-surrender on the
Tugya’s affidavit. See Fed. R. Civ. P. 56(c); U.S. Dep’t of Hous.
& Urban Dev. v. Cost Control Mktg. & Sales Mgmt. of Va., Inc.,
64 F.3d 920, 926 (4th Cir. 1995) (“[H]earsay, like other evidence
inadmissible at trial, is ordinarily an inadequate basis for
summary judgment.”); see also Niblock v. Mercedes Benz Credit
Corp., 134 F.3d 363 (Table), No. 97-1229, 1998 WL 27153, at *4
(4th Cir. Jan. 27, 1998) (affirming district court’s determination
that affidavit did not contain “competent, admissible evidence”
because its statements were inadmissible hearsay).
Even if Sergeant Tugya’s affidavit statements were
admissible, they are contradicted by Officer Byrd’s deposition
testimony that after her conversation with Major Russell three
days earlier, someone took the warrant from her hand and it
“disappeared.” J.A. 108. The affidavit also contradicts Officer
Byrd’s testimony that she first became aware that the warrant
was located in her patrol car during her deposition in this case.
J.A. 107. By portraying the facts related to Officer Byrd’s
possession of the warrant in the light least favorable to
Appellants, the majority ignores the contradictory evidence and
flips the summary judgment standard on its head.

App. 60
following Tuesday. Id. As Deputy Lioi later
explained to internal affairs, “We knew him. I felt
confident that we would be able to find him.” J.A.
563. This was Deputy Lioi’s explanation despite the
fact that officers had up to that point allegedly been
unable to locate Williams to serve the warrant.
Also on Friday, Deputy Lioi, at Williams’s
request, wrote a letter stating that Williams had
been “very cooperative and willing to turn himself
in,” that the Eastern District verified that a warrant
for second degree assault was open, and that the
warrant was not at Central Records but rather “was
being held at North Avenue Court House, which was
closed for the night” of November 13, when Williams
had attempted to self-surrender. J.A. 285, 631. This
letter was written after the warrant had in fact been
located at the Eastern District, yet the letter made
no mention of the warrant having been found. In a
text message to Deputy Lioi, Williams also asked
that Deputy Lioi “leave off the Tuesday part . . .
thats [sic] just for us . . . I just wanted an overview of
the night . . . not too much detail.” J.A. 686. Deputy
Lioi complied. He omitted any information about
Williams’s scheduled self-surrender. J.A. 631.
After Deputy Lioi provided the letter to
Williams, Williams texted Deputy Lioi: “Thank you
Dan. There is a method to my madness:-/” J.A. 101.
Deputy Lioi responded, “That’s what I’m afraid of,”
to which Williams wrote, “Its [sic] cool:-)” Id.
Deputy Lioi wrote back, saying “I trust u.” J.A. 692.
Williams then wrote, “Thanks . . . we both have
shown good favor.” J.A. 693.3
When asked in deposition about whether he would have
issued a similar letter for someone that Lioi did not know
personally, Lioi responded, “[p]robably not, no.” J.A. 288.

3

App. 61
On Sunday, November 16, Williams informed
Deputy Lioi that his attorney had located a different
assault warrant from March 7, 2003, that was issued
for a Maryland resident named Cleaven Williams.
J.A. 285–86.4 Deputy Lioi contacted Central Records’
“hot desk” and confirmed that there was an
outstanding warrant for a Cleaven Williams. J.A.
286. The warrant was for a black male with the
address of 2928 Ruskin Court, Abingdon, Maryland.
J.A. 632. The warrant contained no further
identifying information, such as date of birth, height,
or weight. J.A. 286, 632. And as Williams explained,
his father was also named Cleaven Williams. J.A.
809. At Williams’s request, Deputy Lioi sent him an
email confirming the existence of the March 7, 2003,
warrant for first-degree assault and asserting that
“[t]he information in the Criminal System Inquiry
Case History Display in reference to the subject of
the warrant is very limited and should not be
considered to be you based on the name alone.” J.A.
632. The record does not show that Deputy Lioi
conducted any investigation into the 2003 warrant,
even though he acknowledged in deposition that he
could have contacted the 2003 complainant or the
jurisdiction that sought the 2003 warrant to confirm
the identify of that Cleaven Williams. J.A. 288.
Deputy Lioi had never written such letters
before in his twenty years of law enforcement
experience. J.A. 287–88. However, this was an
“unusual circumstance based on the fact that we
knew this guy as a community leader.” J.A. 287. It

The 2003 warrant was based on an incident in which Williams
fired a gun into a car. J.A. 308.

4

App. 62
was later determined that Williams was in fact the
subject of the 2003 warrant. J.A. 287–88.
On Monday, November 17, Williams and Deputy
Lioi exchanged the following text messages:
Williams: Cool . . . I just left my home 2 meet
w/ my lawyer . . . I saw my wife drive by . . .
can I go home or what?
Lioi: I wouldn’t be alone with her. She could
say you did anything. Have a witness with
you if you meet.
Williams: Thanks Dan.
Williams: Can she do another protection
order & try 2 keep me from the house?
Lioi: She could, I would avoid her. She could
call the police and say u have the warrant
and she is afraid of you. It would force our
hand to serve the warrant.
J.A. 700–05. At some point after the text message
exchange, at around 1:00 or 2:00 p.m. that day,
Williams called Deputy Lioi from his attorney’s
office. J.A. 291. Deputy Lioi encouraged Williams to
turn himself in that same day, rather than wait until
the following day. Id. Williams commented that
Tuesday, the prearranged date, was “still better.” Id.
At the end of the conversation, Deputy Lioi told
Williams to call him after he left his attorney’s office.
Id.
Deputy Lioi had the warrant with him at that
time. J.A. 305. The parties point to no evidence in
the record showing that Deputy Lioi ever logged the
warrant with Central Records after it was found the
previous Friday; instead, it appears that Deputy Lioi
kept the warrant with him. Although Deputy Lioi

App. 63
knew where Williams was, he again did nothing to
serve the warrant.
Also on November 17, the Maryland District
Court for Baltimore City held a final protective order
hearing on Mrs. Williams’s petition. At around 3:00
p.m., Deputy Lioi called Williams back, having not
heard from him after Williams left his attorney’s
office. J.A. 291. Williams answered the phone and
said, “hey, let me call you back.” Id. Approximately
forty minutes later, Mrs. Williams, who was
pregnant, left the courthouse. Outside of the
courthouse, Williams stabbed her multiple times in
the face, head, and neck. She miscarried and died in
the hospital on November 21, 2008. Williams was
convicted of murder and is currently serving a life
sentence. State v. Williams, No. 108350013 (Cir. Ct.
Balt. City Feb. 25, 2011); State v. Williams, No. 110672 (Ct. Spec. App. Apr. 5, 2013) (affirming
conviction).
II.
“Section 1983 imposes liability on state actors
who cause the ‘deprivation of any rights, privileges,
or immunities secured by the Constitution.’” Doe v.
Rosa, 795 F.3d 429, 436 (4th Cir. 2015), cert. denied,
136 S. Ct. 811 (2016). Those rights include the right
under the Fourteenth Amendment’s Due Process
Clause to be free from “conduct that deprives an
individual of bodily integrity.” Id. at 436–37.
Although “[a]s a general matter . . . a State’s failure
to protect an individual against private violence
simply does not constitute a violation of the Due
Process Clause,” DeShaney v. Winnebago Cty. Dep’t
of Soc. Servs., 489 U.S. 189, 197 (1989), an exception

App. 64
to this rule exists “[w]hen the state itself creates the
dangerous situation that resulted in a victim’s
injury,” Doe, 795 F.3d at 438 (quoting Pinder v.
Johnson, 54 F.3d 1169, 1177 (4th Cir.) (en banc),
cert. denied, 516 U.S. (1995)). This exception, the
state-created danger exception, applies where a state
official’s affirmative act created or enhanced the
danger to the individual. Pinder, 54 F.3d at 1175.
A.
As an initial matter, I take issue with the
majority’s easy disregard of our prior opinion in this
case. We are not merely presented for a second time
with the argument that members of the Baltimore
City Police Department created or enhanced the
danger to Mrs. Williams and are thus liable for
violations of the Due Process Clause. Rather, we are
tasked with applying what we have already
established as the law of this case to the facts that
have been developed since the last appeal. In the
previous appeal, we considered the sufficiency of
Appellants’ allegations against Deputy Lioi.
Robinson v. Lioi, 536 F. App’x 340 (4th Cir. 2013),
cert. denied, 572 U.S. 1002 (2014).5 In those
allegations—allegations which survived a Rule
12(b)(6) motion to dismiss—Appellants asserted that
Deputy Lioi “conspired with Cleaven Williams ‘to
evade capture’ and ‘to remain free despite the
finding of probable cause,’ thereby directly enabling
him to harm Mrs. Williams.” Id. at 344. We affirmed
Appellants’ claims against Major Russell were brought after
our decision affirming denial of the motion to dismiss the
claims against Deputy Lioi.

5

App. 65
the district court’s denial of Deputy Lioi’s motion to
dismiss, determining that Deputy Lioi’s alleged
actions—actively interfering with execution of the
warrant by failing to turn the warrant over to the
appropriate unit, warning Williams, giving Williams
advice about how to avoid service, and falsely stating
the warrant could not be found—were affirmative
acts that created or enhanced the danger to Mrs.
Williams. Id. at 344, 346.
In so holding, we rejected Deputy Lioi’s
argument that “because a police officer has
discretion in the execution of arrest warrants, his
conduct in this case did not violate Veronica
Williams’ substantive due process rights.” Id. at 345
(citation omitted). Critically, we found that the
Supreme Court’s decision in Town of Castle Rock,
Colorado v. Gonzales, 545 U.S. 748 (2005), was not
controlling. Id. In Town of Castle Rock, a mother of
three filed suit against the town of Castle Rock,
Colorado, alleging a violation of the Due Process
Clause when the police did nothing to respond to
requests to enforce a restraining order against her
husband who later killed her daughters. 545 U.S. at
751, 753–54. The Court held that the mother had no
property interest in the enforcement of the
restraining order because there was no “legitimate
claim or entitlement to it” where government
officials retained discretion over enforcement. Id. at
756, 766.
We distinguished Town of Castle Rock,
characterizing it as “fundamentally, a case about
inaction”; yet Appellants had “alleged affirmative
misconduct on Lioi’s part such that his actions
‘directly caus[ed] harm to the injured party.’”
Robinson, 536 F. App’x at 345 (alteration in original)

App. 66
(quoting Pinder, 54 F.3d at 1177). Therefore, we held
that Deputy Lioi’s actions “were on that ‘point on the
spectrum between action and inaction’ such that his
acts created ‘the dangerous situation that resulted in
[Mrs. Williams’] injury.’” Id. at 345–46 (alteration in
original) (quoting Pinder, 54 F.3d at 1175, 1177).
We also rejected a defense of qualified immunity,
explaining that “a reasonable police officer in Lioi’s
position would have known that a law enforcement
officer affirmatively acting in a conspiracy with a
third party to avoid arrest on assault charges could
give rise to a constitutional violation when the third
party acts in furtherance of the conspiracy to injure
another person.” Id. at 347. That is, Deputy “Lioi’s
conduct as alleged in the complaint was not in a gray
area; he crossed a bright line.” Id.
The majority now does an about-face, finding
that Town of Castle Rock is in fact controlling and
that Appellants’ evidence amounts to nothing more
than omissions by Deputy Lioi and Major Russell.
Despite, as discussed below, disputes with respect to
several facts that support the allegations this Court
previously held sufficient to show a state-created
danger, the majority now holds that this case
involves “only conduct that is confined to a failure to
execute the warrant.” Maj. Op. at 42 (emphasis
omitted). This conclusion, in my view, is not only
unwarranted in light of the disputed facts, but it also
flies in the face of the well-established doctrine that
“when a court decides upon a rule of law, that
decision should continue to govern the same issues
in subsequent stages in the same case.” TFWS, Inc.
v. Franchot, 572 F.3d 186, 191 (4th Cir. 2009)
(citation omitted); accord Carlson v. Boston Scientific
Corp., 856 F.3d 320, 325 (4th Cir. 2017); United

App. 67
States ex rel. Oberg v. Pa. Higher Educ. Assistance
Agency, 804 F.3d 646, 666 (4th Cir. 2015); Winston v.
Pearson, 683 F.3d 489, 498 (4th Cir. 2012); L.J. v.
Wilbon, 633 F.3d 297, 308 (4th Cir. 2011).
Rather than follow the law-of-the-case doctrine,
the majority seeks to rescind our prior holding,
shielding its decision to do so with the defense that
we are now at the summary judgment stage.
However, the law-of-the-case doctrine does not cease
to have import merely because a different standard
now applies at this later stage of the case. Instead,
the doctrine contemplates that the same legal ruling
will continue to apply despite the varying standards
that may apply in subsequent stages of litigation;
the court’s decision of law continues to govern the
“same issues in subsequent stages in the same case.”
TFWS, 572 F.3d at 191 (emphasis added). Those
subsequent stages include not only those in the same
court, but “all subsequent proceedings in the same
case in the trial court or on a later appeal.” Everett v.
Pitt Cty. Bd. of Educ., 788 F.3d 132, 142 (4th Cir.
2015) (quoting United States v. Aramony, 166 F.3d
655, 661 (4th Cir. 1999)). The standard applied by a
reviewing court on appeal will often differ from the
standard applied by the trial court. And our
standard of review in a subsequent appeal may also
differ from the standard under which we reviewed
the case in a prior appeal. Yet the law-of-the-case
doctrine continues to apply. See, e.g., Oberg, 804 F.3d
at 657 (applying law of the case established in first
appeal to subsequent appeal); S.C. State Ports Auth.
v. Silver Anchor, S.A. (Panama), 23 F.3d 842, 846
(4th Cir. 1994) (finding that district court misapplied
the law of the case when it considered a narrower
question than that which this Court remanded for

App. 68
determination); Stonega Coke & Coal Co. v. Price,
116 F.2d 618, 621 (4th Cir. 1940) (“When the finding
upon the first hearing was affirmed, it became the
law of the case and was binding upon the parties, as
well as upon the lower court, and was not subject to
re-examination upon the remand.”).
Of course, I remain mindful of the summary
judgment standard under which this appeal is
reviewed. The law-of-the-case doctrine does not
preclude proper application of that standard of
review. Nonetheless, the fact that we are now at
summary judgment by itself does not warrant a
departure from the law of the case. If that were so,
the doctrine would have little, if any, effect. Any
legal determination made at the pleading stage
would never be applicable in later stages of the case
where more than the pleadings are before the court.
Moreover, and ironically, it is the majority that
misapplies the summary judgment standard here, as
I discuss below.
I am also mindful that the law-of-the-case
doctrine “is not absolute” and has exceptions.
Capital Inv’rs Co. v. Ex’rs of Morrison’s Estate, 584
F.2d 652, 654 (4th Cir. 1978). It need not be followed
where “substantially different evidence” is developed
after the law of the case is decided, where
“controlling authority has since made a contrary
decision of law applicable to the issue,” or where “the
prior decision was clearly erroneous and would work
manifest injustice.” TFWS, 572 F.3d at 191 (citations
omitted); Sejman v. Warner-Lambert Co., Inc., 845
F.2d 66, 69 (4th Cir. 1988). Adherence to the law of
the case may also give way when a court’s subject
matter jurisdiction is in question. See Am. Canoe

App. 69
Ass’n v. Murphy Farms, Inc., 326 F.3d 505, 515 (4th
Cir. 2003).
I cannot agree, however, that the facts developed
in discovery in this case are “substantially different”
such that they warrant a departure from our prior
holding that the affirmative acts committed by
Deputy Lioi created or enhanced the danger to Mrs.
Williams. See Maj. Op. at 20. I also cannot agree
that Appellants’ burden at this stage is to present
facts that “strengthen” their “earlier allegations.” Id.
at 24. We have already concluded that the
allegations as pleaded—absent any strengthening—
sufficiently stated a claim. Appellants’ burden at this
stage, a burden which I believe to be satisfied, is
merely to present sufficient evidence from which a
reasonable jury could find their pleaded allegations
to be true.6
The majority cites to Wiest v. Tyco Electronics Corp., 812 F.3d
319 (3d Cir. 2016), for the proposition that the law-of-the-case
doctrine “poses no bar to normal reassessment of past holdings
based on a different procedural posture when, as is the case in
the progression from review of a motion to dismiss to a motion
for summary judgment, that later review expands the court’s
inquiry based on development of actual facts underlying a
plaintiff’s claims.” Maj. Op. at 18–19. Wiest, however, does
nothing to support the majority’s view that the law of the case
does not apply here. In Wiest, the Third Circuit rejected the
plaintiff’s argument that the defendant’s summary judgment
motion “was procedurally barred” by the district court’s prior
determination that the complaint stated a claim. 812 F.3d at
329–30. That is not the case here. Neither Appellants nor I
assert that summary judgment is barred altogether because of
the favorable motion-to-dismiss decision. Rather, as the Wiest
panel appropriately explained, the question now presented to
the Court is whether Appellants have “come forward with
sufficient evidence from which a reasonable jury could find that
the [complaint’s] allegations are, indeed, true.” Id. at 330

6

App. 70
“We are not writing on a blank slate, at liberty to
revisit our [prior] decision . . . on a whim.” Winston,
683 F.3d at 498. Because the record contains
sufficient evidence to support the allegations of
Appellants’ complaint—allegations which we have
already concluded state a due process claim—I
would reverse summary judgment and allow
Appellants to try their case to a jury.
B.
On the record developed since the previous
appeal, a reasonable jury could conclude that Deputy
Lioi and Major Russell took several affirmative steps
to allow Williams to evade arrest and that, as a
result, Williams remained free from arrest long
enough to stab his wife on a date on which he knew
exactly where she would be.
In evaluating the evidence, we must remember
what Appellants’ claim is and what this Court has
already decided. Appellants do not claim that each of
the officers’ alleged actions individually resulted in
Williams’s wholesale escape from arrest. Nor do they
claim that the officers were complicit in Williams’s
plan to murder his wife, or even that they knew of
that plan. Appellants claim instead that Deputy Lioi
and Major Russell participated in a conspiracy to
allow Williams—a prominent community figure—to
remain free from arrest. And it was Williams’s
ability to remain free from arrest until November 17,
2008, that gave him the opportunity to fatally attack
his wife. Each of the officers’ acts was taken in
furtherance not of a conspiracy to kill Mrs. Williams,
(citation omitted). To that question, I believe the answer is a
resounding “yes.”

App. 71
but a conspiracy to keep Williams out of jail. And
because that conspiracy enhanced the danger to Mrs.
Williams, we found that Appellants had successfully
pleaded a due process claim under a state-created
danger theory. Robinson, 536 F. App’x at 344.
1.
The acts performed by Deputy Lioi are
undisputed. He authored two letters and several text
messages regarding the events leading up to Mrs.
Williams’s miscarriage and death. And instead of
arresting Williams, he arranged for Williams to turn
himself in on the date Williams requested. No
semantic acrobatics are needed to deem these
actions affirmative acts and not mere omissions. Of
course, what is disputed is whether these affirmative
acts were in furtherance of a conspiracy to allow
Williams to evade arrest—a conspiracy that
ultimately enhanced the danger to Mrs. Williams. A
reasonable jury could find that they were.
Construed in the light most favorable to
Appellants, the letters that Deputy Lioi wrote can
reasonably be viewed as his attempt to assist
Williams in evading arrest by any authorities
presented with the letters. Though the first letter
explained that Williams had attempted to turn
himself in, it misleadingly omitted the fact that the
warrant had been located shortly after Williams was
allowed to leave the precinct and that Williams had
secured another four days of freedom before he
agreed to turn himself in. The subsequent email
implied that Williams was not otherwise a wanted
man. The email was prepared without any
investigation by Deputy Lioi into the identity of the

App. 72
Cleaven Williams listed on the 2003 warrant, despite
Deputy Lioi’s testimony that he could have
ascertained the proper identity.
The majority concludes that these letters cannot
support Appellants’ claim in part because they “state
facts.” Maj. Op. at 26. Apparently, the majority
believes that an affirmative act requires more than
affirmative action; it also requires deceit or express
inaccuracies. Such a rule finds no support in the law.
Moreover, the mere recitation of facts or “thenexisting opinions” did not, as I have highlighted,
make the letters any less misleading. Deputy Lioi
carefully selected the facts that he included in the
letters and purposely excluded other highly relevant
facts. Crafting the letters in such a way only
supports Appellants’ allegation that Deputy Lioi was
conspiring with Williams to allow him to remain a
free man a while longer; if Deputy Lioi were merely
documenting the facts, with no motive to assist
Williams in evading arrest, there would be no reason
to cherry-pick the information he included.
Indeed, the men’s text message exchange
suggests that Deputy Lioi’s “then-existing opinions”
were not so benign. Despite expressing some
misgivings about Williams’s request for the letters,
Deputy Lioi nonetheless “trust[ed]” Williams’s
“method to [his] madness.” J.A. 101, 692. And this
letter-writing was far from routine. Deputy Lioi had
never before in his twenty-year law enforcement
career written such letters and confirmed he would
“[p]robably not” write any such letters for someone
that he did not personally know, but that Williams
was an “unusual” case; the officers knew him and he

App. 73
was a community leader. J.A. 287–88.7 These acts do
not show simple “negligen[ce] in pursuing service of
the warrant.” Maj. Op. at 28. Construed in the
proper light, the letters demonstrate Deputy Lioi’s
highly unusual acts to provide assistance to
Williams, assistance aimed at keeping Williams out
of police custody a while longer, assistance that
Deputy Lioi otherwise has not and does not provide
but provided to Williams because of his status as a
community leader.
Similarly, Deputy Lioi’s text message exchange
with Williams on the day Williams killed his wife is
evidence of his participation in the conspiracy to
delay Williams’s arrest until the date of Williams’s
choosing. As with the letters, those text messages
conveyed “factual information.” Maj. Op. at 27. But
they also advised Williams of the consequences of his
failure to avoid contact with his wife: such contact
could “force [the officers’] hand to serve the
warrant.” J.A. 705. Those text messages
demonstrate, in Deputy Lioi’s own words, his desire
not to do his job and instead to defer to Williams’s
prearranged self-surrender schedule. Indeed, despite
the difficult time that officers had in locating the
warrant, Deputy Lioi held onto the warrant for three
days without delivering it to Central Records when it
was finally located. The text exchange also suggests
that Deputy Lioi sought to avoid doing his job
When Deputy Lioi was asked “how many other times have you
written a letter for somebody” like the letters he wrote for
Williams, Deputy Lioi responded “[r]emember, this was an
unusual circumstance based on the fact that we knew this guy
as a community leader.” J.A. 287. As the majority appears to
accept, the reasonable inference can be made that Deputy Lioi
had never previously written such letters.

7

App. 74
despite his knowledge that Williams could seek out
his wife—the victim of domestic violence whose
testimony provided probable cause for the issuance
of the warrant in the first place. Deputy Lioi knew
that Mrs. Williams had sought protection from her
husband. Had Deputy Lioi simply not desired to
serve the warrant, this might have been a different
case. But Deputy Lioi communicated his desire to
avoid being “force[d]” to do his job to the very subject
of the arrest warrant. In doing so, Deputy Lioi went
beyond simply refraining from aggressively serving
the warrant. Viewing the text message exchange in
combination with the letters that Deputy Lioi wrote
and Deputy Lioi’s arrangement with Williams to
turn himself in on entirely his own terms, a juror
could certainly conclude that his conduct assisted
Williams in delaying his arrest until the date
Williams selected.
This affirmative conduct is distinguishable from
the omissions and failures to act that we have found
insufficient to show a state-created danger. See Doe,
795 F.3d at 431, 439 (concluding that no affirmative
act created danger when college president failed to
report child abuse to law enforcement); Pinder, 54
F.3d at 1172, 1175 (finding no affirmative act when
officer failed to charge petitioner’s ex-boyfriend with
more serious crime); see also Town of Castle Rock,
545 U.S. at 753, 756 (finding no liability where
police failed to respond to mother’s requests to
enforce restraining order against her husband). Had
the developed record shown that Deputy Lioi merely
sat on his hands and failed to pursue any course of
action with respect to Williams’s arrest, the law-ofthe-case doctrine may not have applied, relieving the
Court of its obligation to adhere to its prior ruling.

App. 75
See Carlson, 856 F.3d at 325 (explaining that a court
may depart from the law of the case when “a
subsequent trial produc[es] substantially different
evidence” (internal citation omitted)). In that case,
this matter may very well have fallen neatly in line
with Doe, Pinder, and Town of Castle Rock, as the
majority holds. But the record shows that Deputy
Lioi chose to act. And his conduct “was far more than
a mere passive failure to act”; it could reasonably be
construed by a jury as affirmative action to permit
Williams to “remain free despite the finding of
probable cause” for his arrest. Robinson, 536 F.
App’x at 344.
2.
As for the evidence of Major Russell’s conduct, a
reasonable jury could likewise conclude that he took
affirmative steps, similar to those which we
previously held to constitute affirmative acts, to
allow Williams to remain at large until Williams
himself determined the most convenient time for his
arrest.
Like with Deputy Lioi, the record shows that
Williams had a relationship with Major Russell. J.A.
439, 444. It is undisputed that the two texted each
other and spoke of personal matters and that Major
Russell instructed Deputy Lioi to ensure that
Williams’s
self-surrender
went
“well”
and
“smoothly.” J.A. 288. The fact that Major Russell
said that he did not ask Deputy Lioi to give Williams
any special treatment does not change the other
record evidence showing that Major Russell did, in
fact, treat Williams differently. See Maj. Op. at 8

App. 76
n.4.8
He asked his second-in-command to be
responsible for Williams’s self-surrender, despite the
fact that Deputy Lioi had not arrested anyone “since
the late ‘90s” and despite Major Russell’s admission
that it was “unusual” for someone of Deputy Lioi’s
rank to supervise a self-surrender. J.A. 467. And
Major Russell provided Williams with advice on how
to avoid spending an entire weekend in jail, advice
that was not routinely given to those with
outstanding arrest warrants. J.A. 277–78.
While Major Russell’s relationship with Williams
alone is not dispositive of Appellants’ claim, it
informs a factfinder’s view of Major Russell’s
conduct. With respect to that conduct, there is a
dispute—a dispute that even the majority
acknowledges, Maj. Op. at 36—as to whether Major
Russell ordered that the warrant be “pulled,” or
diverted from the regular course of processing. Major
Russell testified in deposition that he was unaware
of the warrant until it had already reached Officer
In attempting to minimize the relationship between Williams
and the police officers, the majority relies on statements made
by those officers that Major Russell did not ask that Williams
be given any special treatment. Maj. Op. at 8 n.4. These are
nothing more than self-serving statements that are
contradicted by other evidence in the record, as I discuss. In
fact, Major Russell makes other self-serving statements that
clearly are not borne out by the record. For example, he
testified that if the officers “knew where [Williams] was he
would have been arrested at that time, especially if [the
officers] had that warrant in hand.” J.A. 468–69. Yet, the
warrant was in the hands of the officers as of Friday, November
14; Deputy Lioi testified that they knew how to locate Williams;
and yet Williams was not arrested at that time and instead was
permitted to prearrange for a second time his self-surrender
four days later—an arrangement that Major Russell endorsed.

8

App. 77
Byrd, the day after it was issued and brought
directly to the precinct, that he did not pull the
warrant after Officer Arroyo picked it up, and that
he never possessed it. However, Deputy Lioi testified
that after Williams told Major Russell about the
warrant, Major Russell “had the warrant pulled.”
J.A. 270. Moreover, Officer Arroyo testified that he
would have bypassed Central Records in this case
only upon a superior’s orders. And Officer Byrd
explained that “[s]omeone took” the warrant from
her hand after she discussed the warrant with Major
Russell, J.A. 108, that she never attempted service of
the warrant, and that she learned that the warrant
was found in her patrol car only during discovery in
this
case.
In
discussing
Major
Russell’s
communication with Williams and the subsequent
“pull[ing]” of the warrant, Deputy Lioi described “the
whole thing” as “unusual.” J.A. 270. Yet Williams
was also an unusual suspect; he was a community
leader, and Deputy Lioi and Major Russell both
treated him differently because of that fact.
With respect to that different treatment, there is
also a dispute as to whether Major Russell made
“arrangements” for Williams to turn himself in at a
date and time certain. Major Russell testified that he
“didn’t make arrangements for him to turn himself
in.” J.A. 455. Rather, according to Major Russell, he
“simply said you need to turn yourself in, and
[Williams] agreed.” Id. Major Russell could not recall
deciding on a date and time. Id. Major Russell also
stated that it “sound[ed] odd” that Williams “pretty
much prearranged when he should turn himself back
in.” J.A. 468. In fact, Williams’s arrangement to selfsurrender was the first and only such arrangement

App. 78
to be made at the Eastern District during Major
Russell’s tenure. J.A. 469.9
The record also shows that Major Russell did in
fact arrange for Williams to turn himself in. Major
Russell informed Deputy Lioi of the November 13
arrangement and ensured that Deputy Lioi would be
there to process Williams. J.A. 100, 249. Major
Russell exchanged text messages with Williams on
November 13 regarding Williams’s estimated time of
arrival. And after the warrant could not be located
and Williams was allowed to leave the police station,
Deputy Lioi testified that Major Russell agreed with
him to allow Williams to “turn himself in at a later
date,” on Tuesday, November 18. J.A. 277. Moreover,
while denying any “prearrangement that [Williams]
could stay free for this long,” Major Russell also
acknowledged that an “agreement” was in place and
explained that he was “almost handcuffed” to the
“agreement” to allow Williams to self-surrender
because police officers “had no clue where [Williams]
was.” J.A. 469. Yet Deputy Lioi did not hesitate to
allow Williams to leave the Eastern District on
November 13 after a mere 20-minute search for the
warrant because the district police officers “knew
[Williams]” and Deputy Lioi was “confident that we
would be able to find him.” J.A. 563.
In light of this testimony, I disagree with the
majority that any involvement by Major Russell in
The majority highlights testimony that 15 to 20 people selfsurrender in the Eastern District each year. Maj. Op. at 35
(citing J.A. 468). The record shows, however, that those people
do not prearrange their self-surrender. J.A. 468. Williams’s
case was the only case of a prearranged self-surrender in the
Eastern District that Major Russell could recall. Id. at 468–69.
In fact, Major Russell characterized such a pre-scheduled selfsurrender as “odd.” Id. at 468.

9

App. 79
the willful mishandling of the warrant and the
broader conspiracy to help Williams evade arrest is
supported by nothing more than “impermissible
speculation.” Maj. Op. at 30. Major Russell knew
Williams and gave his case particular attention
because he was a community leader. Major Russell
had the warrant pulled, reviewed the warrant right
before it disappeared from Officer Byrd’s hand, gave
Williams advice he did not routinely give to those
who are subject to an arrest warrant, told Deputy
Lioi where the warrant could be found,10 and
arranged with Williams two separate dates for his
self-surrender—dates that he let Williams determine
and the second of which was several days after the
warrant was actually located. This all took place
despite the fact that, as Major Russell himself
explained, open warrants are typically acted upon
very quickly in the Eastern District. J.A. 470.
On the evidence presented by Appellants, a
reasonable jury could conclude that Major Russell—
who knew Williams personally and respected him as
a community leader—actively participated in the
diversion and delay in execution of the warrant.
Such interference with the warrant rises to the level
of affirmative action. Robinson, 536 F. App’x at 345.
C.
I also disagree with the majority that Deputy
Lioi and Major Russell did not enhance the danger to
Mrs. Williams. In our prior opinion in this case, we
Again, the majority’s reliance on the statements in Sergeant
Tugya’s affidavit about his conversation with Officer Byrd
regarding the location of the warrant are inadmissible hearsay.
See supra, note 2.
10

App. 80
determined that “Lioi’s alleged affirmative acts with
his co-conspirator, Cleaven Williams, to avoid arrest
directly enabled Mr. Williams to perpetrate the
harm to Mrs. Williams.” Robinson, 536 F. App’x at
345. In my view, nothing in the now-developed
record supports the opposite conclusion as a matter
of law.
First, in relying heavily on the defense expert’s
testimony that Williams was likely to be released on
his own recognizance or on bond within 24 hours of
his arrest, the majority overlooks other critical
evidence in the record. See Maj. Op. at 45–46 (citing
J.A. 128). One of the reasons Williams gave for
wanting to delay his arrest was that he needed time
to raise money for his bail. J.A. 100. Therefore, even
if Williams were released on bond—which, of course,
was a decision left to the sole discretion of the judge
and over which the expert ultimately had no say—
the record suggests that he would not have been able
to make the bond payment to be released from jail.
Moreover, if Williams had been arrested on Friday,
November 14 (after the warrant was located), that
weekend, or even Monday morning, it is not at all
certain that he would have been released from
custody by the time his wife left the court
proceeding.
More importantly, though, because Williams was
a community leader and their acquaintance, Deputy
Lioi and Major Russell affirmatively acted so that
Williams’s arrest was delayed, and their acts
“creat[ed] the opportunity for [Williams] to murder
his wife.” Doe, 795 F.3d at 440 (discussing and
distinguishing Robinson). Although the majority
goes to great lengths to downplay the relationship
between Williams and the officers, Maj. Op. at 8 &

App. 81
n.4, 31–32 & n.14, the record undisputedly shows
that both officers viewed Williams as someone to be
treated differently because he was a community
leader. Williams was not the ordinary suspect. He
enjoyed the special favor of Deputy Lioi and Major
Russell, and the officers’ conduct implicitly assured
Williams that he would not be arrested until the
date of his choosing. The officers knew how to locate
him, yet they did not serve the warrant. Deputy Lioi
provided him with unusual supportive letters, told
him to avoid forcing the officers’ hands to arrest him,
and told him that he trusted him. Both officers
ultimately made arrangements that allowed
Williams to stay out of jail until the date that he
requested.11
To be clear, the nexus between the officers’
affirmative acts and the enhanced danger to Mrs.
Williams does not turn on whether the officers had
knowledge of Williams’s specific intention to kill his
wife. Williams told the officers that he needed the
additional time to raise capital for bail, assist his
mother, and take care of other unspecified matters.
It was unbeknownst to the officers that Williams had
more sinister plans.
But the officers’ ignorance of those plans is not
dispositive of the question of liability. Contrary to
the majority’s conclusion, both officers did have
Neither officer was “handcuffed” to the self-surrender
arrangements that they made with Williams, as Major Russell
and the majority suggest. J.A. 469; see Maj. Op. at 35–36
(explaining that the officers “wanted to keep [Williams]
communicating and cooperating with them rather than go
silent, so they were willing to have him return to selfsurrender”). Williams was a known community leader,
communicated openly with both officers, and Deputy Lioi was
confident that they could locate him.
11

App. 82
“personal knowledge” that Williams posed some
threat to Mrs. Williams’s safety. Maj. Op. at 45. Mrs.
Williams had in fact sought police protection from
her husband. Cf. Maj. Op. at 44 (“[N]o evidence
shows that Mrs. Williams or anyone else on her
behalf ever approached Lioi or Russell to seek
protection from her husband.”). She sought a
protective order, and a warrant was issued for her
husband’s arrest on domestic assault charges. Major
Russell was informed by Williams that his wife had
“got some papers on him,” J.A. 706, and personally
saw the warrant right after it was issued. Deputy
Lioi was also aware of the warrant, certain that it
had issued, and exchanged text messages with
Williams about the importance of avoiding his wife
because “she could say you did anything” and could
tell the police that she was “afraid” of Williams. J.A.
702, 705. The officers knew that Williams’s assault
of his wife was supported by probable cause and that
she would likely express fear of her husband if she
saw him again. Deputy Lioi was even “afraid of”
Williams’s “method to [his] madness.” 689–90.
It is not impermissible speculation, nor does it
require a great leap, to conclude that on this
evidence, the officers knew that Williams posed some
level of danger to his wife while he remained free
from arrest. That is, an increased danger to Mrs.
Williams’s safety was the natural and foreseeable
consequence of the officers’ affirmative acts to delay
Williams’s arrest on the assault warrant. It was not
the “indirect and incidental result” of the police
department’s lack of enforcement. Town of Castle
Rock, 545 U.S. at 767 (quoting O’Bannon v. Town
Court Nursing Ctr., 447 U.S. 773, 787 (1980)).
Rather, as we previously held, the officers’ conduct

App. 83
“directly enabled [ ] Williams to perpetrate the harm
to Mrs. Williams” and, therefore, “affirmatively
placed [Mrs. Williams] in a position of danger.”
Robinson, 536 F. App’x at 345 (second alteration in
original) (quoting Wood v. Ostrander, 879 F.2d 583,
589 (9th Cir. 1989)).
In concluding that the causal nexus is lacking
here, the majority relies improperly, in my view, on
our decisions in Doe and Pinder. Those cases rested
primarily on the finding that the defendants did not
affirmatively act. See Doe, 795 F.3d at 441 (“Rosa’s
alleged ‘affirmative acts’ boil down to a particular
inaction.”); Pinder, 54 F.3d at 1176 (“Pinder’s case is
purely an omission claim.”). And to the extent that
Doe found that there was an insufficient nexus
between the alleged conduct and the harm to the
victim because the conduct occurred “beyond the
context of immediate interactions between the [state
actor] and the plaintiff,” Doe is readily
distinguishable as the defendant there “did not meet
or speak with the [plaintiffs], and by all accounts,
was not even aware the [plaintiffs] existed.” Doe, 795
F.3d at 441 (first alteration in original) (citation
omitted).
I also am not persuaded that Williams’s preexisting risk to his wife means that nothing the
officers did enhanced the danger to Mrs. Williams.
As we explained in Doe— while distinguishing Doe
from our prior decision in this case—the officers here
“substantially changed a pre-existent danger” to
Mrs. Williams; they did not “simply fail to intervene
to stop it.” Id. at 440. For “[t]hough the risk of
domestic abuse already existed, the officer[s]
‘directly enabled [Williams] to perpetrate the harm
to [his wife]’ and ‘affirmatively placed [Mrs.

App. 84
Williams] in a position of danger.’” Id. (quoting
Robinson, 536 F. App’x at 345). It was the
inescapable facts of the officers’ affirmative actions
that kept Williams out of jail and thus made viable
his plan to murder his wife. While the officers were
unaware of that murderous plot, a jury could
reasonably find that they did conspire to allow
Williams to choose the date of his arrest and to
remain free from arrest until that date. And it
happened that Williams chose to submit to arrest
the day after his wife’s protective order hearing—the
day after he knew with certainty where she would be
and at what time, and the day after he fatally
stabbed her. Therefore, to hold as a matter of law
that Mrs. Williams faced the same risk of death at
the hands of her husband regardless of the officers’
actions is to do the very thing of which the majority
accuses Appellants—engage in impermissible
speculation.
Appellants have presented evidence that Deputy
Lioi and Major Russell placed Mrs. Williams in
greater danger, and a jury should decide whether the
nexus requirement is satisfied.
D.
Finally, I cannot agree that Deputy Lioi and
Major Russell are entitled to qualified immunity.
In finding that it was not clearly established in
2008 that an officer’s “decision to allow selfsurrender rather than aggressively serve a
misdemeanor arrest warrant” would be a
constitutional violation, the majority again
improperly construes the disputed facts of this case
in the light most favorable to the wrong party. Maj.

App. 85
Op. at 47. As the Supreme Court has emphasized, it
is critical that courts evaluating a defendant’s
entitlement to qualified immunity at the summary
judgment stage construe disputed facts and draw all
reasonable inferences in favor of the non-movant,
“even when, as here, a court decides only the clearlyestablished prong of the [qualified immunity]
standard.” Tolan v. Cotton, 572 U.S. 650, 657 (2014).
This is because courts define the clearly established
right at issue “on the basis of the ‘specific context of
the case.’” Id. (citation omitted). Therefore, our
review of a summary judgment order must “take
care not to define a case’s ‘context’ in a manner that
imports genuinely disputed factual propositions.” Id.;
West v. Murphy, 771 F.3d 209, 213–14 (4th Cir.
2014). By defining the right at issue in the way that
it does—as nothing more than a right to be free from
a police officer’s failure to aggressively serve an
arrest warrant and to instead allow the subject of a
warrant to self-surrender—the majority accepts
Deputy Lioi and Major Russell’s construction of the
record evidence, effectively “weigh[ing] the evidence
and resolv[ing] disputed issues in favor of the
moving party.” Tolan, 572 U.S. at 657 (quoting
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 249
(1986)). This is patently improper. Id.
Moreover, the mere lack of binding precedent in
2008 regarding the application of the state-createddanger doctrine in this context is insufficient
grounds to conclude that the right at issue was not
clearly established. It is settled that an officer can be
placed on notice that an action is unconstitutional
even when “the very action in question” has not
previously been found unlawful. Hope v. Pelzer, 536
U.S. 730, 739 (2002)). That is, “officials can still be

App. 86
on notice that their conduct violates established law
even in novel factual circumstances.” Id. at 741. As
the majority concedes, the general right to be free
from affirmative state conduct that creates or
enhances the danger that a person faces at the
hands of a private citizen was clearly established at
the time of Deputy Lioi and Major Russell’s actions.
And while there may have been no binding
precedent addressing the specific circumstances of
the case at hand, it requires little more than
common sense to understand that a police officer
could face liability when she acts to assist the
subject of an arrest warrant in evading arrest until a
date of his own choosing. See id. (determining that a
constitutional violation, though novel, “was so
obvious” that the Court’s case law “gave respondents
fair warning that their conduct violated the
Constitution”). Such conduct is not the failure to act
that Deshaney and Pinder had rejected as a basis for
liability. Nor is it a simple exercise of police
discretion in executing warrants that the Supreme
Court spoke of in Town of Castle Rock. Rather, it is a
“misuse of state authority,” which before 2008 had
been held to violate the Due Process Clause. Bright
v. Westmoreland Cty., 443 F.3d 276, 282 (3d Cir.
2006); Natale v. Town of Ridgefield, 170 F.3d 258,
262 (2d Cir. 1999) (“[G]ross abuse of governmental
authority [ ] will offend the substantive component of
the Due Process Clause.”); see also Cromer v. Brown,
88 F.3d 1315, 1329 n.9 (4th Cir. 1996) (“In deciding
whether [a plaintiff] is asserting a clearly
established right, we may examine the pre-existing
law outside this circuit.” (citing Pinder, 54 F.3d at
1176–78)).

App. 87
In short, this is not a case “in which an officer
would be required to reason backward from case law
‘at a high level of generality’ to determine whether
his conduct violated a constitutional right.” Harris v.
Pittman, --- F.3d ---, ---, No. 17-7308, 2019 WL
2509240, at *11 (4th Cir. 2019) (citing Ashcroft v. alKidd, 563 U.S. 731, 741 (2011)). I would find that
Deputy Lioi and Major Russell are not entitled to
qualified immunity.
III.
Contrary to the majority’s holding, this is not a
case of a negligent failure to act. This is not a case in
which officers “had no hand in creating the danger
but simply stood by and did nothing when suspicious
circumstances dictated a more active role for them.”
Doe, 795 F.3d at 440–41 (brackets and citation
omitted). The officers here took an “active role.” They
actively allowed and even helped Williams to evade
an arrest warrant for which there was probable
cause, despite their knowledge of the pending
domestic assault charges.
If this case does not present a jury question
under a state-created danger theory, it is hard to
imagine what would. Must the officers have placed
the knife in Williams’s hand, diverted the entire
police force from the steps of the courthouse where
Mrs. Williams was stabbed, and themselves assisted
in the killing of Mrs. Williams, as the State
suggested during oral argument? The bar to recovery
under the theory is a high one, but surely not that
high. Indeed, it is imperative in these cases that we
refrain from finding that “the line between action
and inaction, between inflicting and failing to

App. 88
prevent the infliction of harm, is clearer than it is.”
Bowers v. DeVito, 686 F.2d 616, 618 (7th Cir. 1982).
Before this case, our Court had not encountered a
case in which the line between inaction and action
was crossed. It is disheartening to see that, when
finally faced with a record that supports a statecreated-danger due process claim, the Court casts it
aside into the pile of omission claims.
I would instead find that the law of the case
applies, that Appellants have come forward with
sufficient evidence to support their due process
claim, and that they are entitled to have a jury
decide whether Deputy Lioi and Major Russell
affirmatively enhanced the danger to Mrs. Williams.
And because the disputed facts underlie Appellants’
state claims of gross negligence, wrongful death, and
survival, I would reverse summary judgment on
those claims as well.

App. 89
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Civil No. CCB-12-192
CARLIN ROBINSON, ET AL.
v.
DANIEL A. LIOI, ET AL.
MEMORANDUM
This case arises from the November 2008 murder
of Veronica Williams (“Ms. Williams”) by her
husband, Cleaven Lawrence Williams, Jr. (“Mr.
Williams”). Mr. Williams stabbed Ms. Williams
outside a Baltimore court following that court’s
grant of her request for a protective order against
Mr. Williams. Although Ms. Williams had filed
assault charges against Mr. Williams several weeks
earlier, the Baltimore City Police Department
(“BCPD”) did not serve the arrest warrant on him.
Carlin Robinson (“Ms. Robinson”), as Guardian and
Next Friend of Ms. Williams’s children, and Eunice
Graves (“Ms. Graves”), Ms. Williams’s mother
(collectively, “the plaintiffs”), initially filed this civil
suit against Mr. Williams, the BCPD, and Daniel A.
Lioi (“Lioi”), a Deputy Major of the BCPD’s Eastern
District. The plaintiffs filed an amended complaint
after this court dismissed their claims against the
BCPD, adding as a defendant Melvin Russell
(“Russell”), a BCPD Major. The plaintiffs alleged
that due to their prior relationship with Mr.
Williams, Russell and Lioi departed from normal
procedures in serving the arrest warrant, thereby

App. 90
enabling Mr. Williams to remain free at the time he
killed his wife.
The plaintiffs have asserted claims against
defendants for violating Ms. Williams’ s due process
rights under 42 U.S.C. § 1983, and for conspiring to
violate Ms. Williams’s constitutional rights under 42
U.S.C. § 1985. They also have asserted state law tort
claims for wrongful death, survival action, battery,
gross negligence, reckless endangerment, intentional
infliction of emotional distress, common law
conspiracy, conversion, fraud, and intentional
misrepresentation. Now pending are Lioi’s and
Russell’s Motions for Summary Judgment (ECF No.
144; ECF No. 146), plaintiffs’ Motion to Strike Lioi’s
Motion for Summary Judgment (ECF No. 153), and
Lioi’s Cross-Motion to Modify Scheduling Order
(ECF No. 166). The motions have been fully briefed,
and no oral argument is necessary. See Local R.
105.6 (D. Md. 2016). For the reasons set forth below,
plaintiffs’ Motion to Strike will be denied, Lioi’s
Cross-Motion to Modify Scheduling Order will be
granted, and defendants’ Motions for Summary
Judgment will be granted.
BACKGROUND
The uncontested facts are as follows. Mr. and
Ms. Williams lived with their three young children
in Baltimore, Maryland. (PL Opp’ n at p. 5, ECF No.
175-1). Mr. Williams served as the president of the
Greater Greenmount Community Association.
(Russell Mot. Sumra. J. at p. 7, ECF No. 144-1).1 It
Lioi “expressly incorporates by reference” the undisputed facts
as set forth in pp. 5-14 in Russell’s Motion for Summary
Judgment. (Lioi Mot. Summ. J. at p. 3, ECF No. 146-1).

1

App. 91
was in this capacity that Mr. Williams first met
Russell and Lioi; their interactions were limited to
joint participation in several “community meetings”
and “community walks.” (Id.) On Sunday, November
9, 2008, Ms. Williams filed for and was granted a
protective order against Mr. Williams for “seconddegree assault and unauthorized removal of property
arising out of an October incident where Mr.
Williams assaulted her by pinning her down and
using a pair of scissors to cut off her hair.” (Id. at p.
5-6). A warrant was then issued for Mr. Williams’s
arrest in connection with the October incident.
(Arrest Warrant, ECF No. 144-3, Ex. 1). At
approximately 11:30 p.m. on Sunday, November 9,
2008, BCPD Officer Jose Arroyo, following
instructions from a dispatcher, picked up the arrest
warrant from the Court Commissioner. (Russell Mot.
Summ. J. at p. 6, ECF No. 144-1). Despite the fact
that arrest warrants are generally first brought to
“central records” for logging unless the warrant
requires “immediate service” or the subject of the
warrant is in custody (Arroyo Dep. 47:6-19, ECF No.
175-8, Ex. 6; ECF No. 174-12, Ex. 10),2 neither of
Russell disputes the fact that “fresh warrants . . . hot right off
the presses,” are generally brought to central records first.
Instead, he suggests warrants are brought directly to the
district where the warrant is to be served and that warrants
are later brought to central records only if patrol officers fail to
serve the warrant for several days. (Russell Dep. 78:15-81:6,
ECF No. 175-4, Ex. 4). BCPD General Order K-4 does not
entirely clarify; it states:
“If the arrest warrant must be served immediately,
have the warrant logged in the district where the
offense occurred. However, if a warrant does not
require immediate service the warrant will be
forwarded to the Central Records Division

2

App. 92
which was the case here, Officer Arroyo returned to
the Eastern District with the warrant without first
stopping at “central records.” (Id. at 58:22-59:8).
While it is possible Officer Arroyo bypassed bringing
the warrant to “central records” upon the orders of a
superior officer, Officer Arroyo does not recall if
Russell, Lioi, or any other superior officer issued any
such order. (Arroyo Dep. 47:6-20, 49:11-54:2, ECF
No. 175-8, Ex. 6). Officer Arroyo had no further
involvement with the arrest warrant or with Mr.
Williams, Russell, or Lioi after bringing the warrant
to the Eastern District. Over the next several days,
officers may have attempted to serve the warrant on
Mr. Williams by “turning up” at his residence; if
these “turn-ups” were indeed occurring, however,
officers were unsuccessful in locating Mr. Williams
and serving the warrant.3 (Internal Incident Report,
ECF No. 175-10, Ex. 8).
Russell eventually learned about the warrant on
or about Monday, November 10, 2008. (Russell Dep.
69:11-70:22, ECF No. 175-4, Ex. 2). On that day, Mr.
Williams sent the following text to Mr. Russell: “Call
me, major.” (Mr. Williams’s Texts at p. 5, ECF No.
by the Court Commissioner, where the appropriate
administrative controls will be initiated for the
warrant.”
(ECF No. 175-9, Ex. 7).
The parties dispute whether these “turn-ups” occurred.
Russell contends multiple turn-ups occurred, and that he
himself attempted to personally serve the warrant. (Russell
Mot. Summ. J. at p. 9, ECF No. 144-1). Conversely, plaintiffs
contend it is equally likely that “the turn-ups were not being
conducted at all.” (Robinson Opp’n at p. 15-16, ECF No. 175-1).
In any event, what is uncontested is that the warrant was not
successfully served at this time.

3

App. 93
175-6, Ex. 4). Two days later, on Wednesday,
November 12, 2008, around 3:20 p.m., Mr. Williams
texted Russell regarding turning himself in, stating:
“I would really like to do it on Tuesday[.] I am still
trying to get capital[.] I only have $3,000 right now[.]
I have some favors coming through. ” (Id. at p. 6). At
deposition, Mr. Williams explained that he wanted
to turn himself in on Tuesday after speaking with
his lawyers, who advised “him not to turn [himself in
on a . . . Friday or Monday.” (Mr. Williams Dep. 36:937:15, ECF No. 144-8, Ex. 6). Later that Wednesday
afternoon, Russell informed Lioi that Mr. Williams
had an arrest warrant out for “common assault.”
(Lioi Dep. 79:1-81:22, ECF No. 174-3, Ex. 1). Russell
informed Lioi that Mr. Williams was scheduled to
turn himself in the next day, Thursday, November
13, 2008, at 9:00 p.m., and asked if Lioi could be
present. (Id. at 82:2-14). Russell made this request
because he was working the day shift from 9:00 a.m.
to 5:00 p.m., and Lioi was covering the night shift,
which typically ran from 2:00 p.m. until 10:00 p.m.
at night. (Id. at 80:18-81:2).
On Thursday, November 13, at approximately
1:00 p.m., Mr. Williams sent Russell a text stating:
“I am running behind. I should be there in 15.” (Mr.
Williams’s Texts at p. 7, ECF No. 175-6, Ex. 4). In
response, Russell replied: “K.” (Id.) At this time,
Russell did not inform Lioi that he was in contact
with Mr. Williams. (Lioi Dep. 264:10-267:2, ECF No.
174-3, Ex. 1). This 1:00 p.m. text exchange occurred
roughly eight hours before Mr. Williams eventually
turned himself in at the Eastern District at 9:00 p.m.
When asked at deposition regarding this text
exchange, Russell indicated his belief that Mr.
Williams was referencing his intent to “com[e] to the

App. 94
station” to turn himself in during the time Russell
was working. (Russell Dep. 210:17-21, ECF No. 1754, Ex. 2). Specifically, Russell stated he “didn’t meet
[Mr. Williams] or make any arrangement to meet
[Mr. Williams] outside of [Mr. Williams] turning
himself in,” and that Mr. Williams must have “never
show[n] up” around 1:15 p.m. as suggested in the
text message. (Id at 214:11-215:2, 210:17-21).
At approximately 9:00 p.m. on Thursday,
November 13, 2008, Mr. Williams arrived at the
Eastern District to turn himself in. (Russell Mot.
Summ. J. at p. 11, ECF No. 144-1; Robinson Opp’n
at p. 10, ECF No. 175-1). Mr. Williams stated at
deposition that he went to the Eastern District that
night believing he would be incarcerated and
released the following morning on Friday, November
14, 2008. (Mr. Williams Dep. 42:21-43:13, ECF No.
144-8, Ex. 6). When Mr. Williams arrived, Lioi and
another officer inquired with “central records”
regarding Mr. Williams’s arrest warrant because
that is where warrants generally are stored. (Lioi
Dep. 115:12-22, ECF No. 174-3, Ex. 1). Central
records, however, did not have a copy of the warrant
because Officer Arroyo had brought it directly to the
Eastern District without first stopping at central
records. After checking with central records, Lioi
made various inquiries to the commissioner’s office,
the sheriff’s office, and the North Avenue courthouse
to locate the warrant. (Id. at 116:5-117:5). After a
period of time,4 realizing that central booking would
Lioi estimated this period of time was approximately “an hour
and a half’ at deposition. (Lioi Dep. 116:14-22, ECF No. 174-3,
Ex. 1). However, during a 2008 Internal Affairs investigation;
Lioi estimated the time was between twenty or thirty minutes.
(Lioi Internal Affairs Statement at p. 3, ECF No. 175-7, Ex. 5).

4

App. 95
not accept Mr. Williams without a warrant, and
acknowledging the warrant might not be located in a
timely manner, Lioi allowed Mr. Williams “to leave
[the station] with the agreement that he would come
back” once the warrant was located. (Russell Dep.
115:1-5, ECF No. 175-4, Ex. 2). The warrant was
eventually located “a little after midnight,” on
Friday, November 14, 2008, in the patrol car of
Officer Adrienne Byrd, who had attempted to serve
the warrant during the previous shift. (Sgt. Todd
Tugya Aff. ¶¶ 4-5, ECF No. 144-12, Ex. 10). Despite
finding the warrant the morning of Friday,
November 14, 2008, Russell and Lioi authorized Mr.
Williams to turn himself in on Tuesday, November
18, 2008. (Lioi Dep. 221:19-223:17, ECF No. 174-3,
Ex. 1).
On Friday, November 15, 2008, Lioi issued a
letter, at Mr. Williams’s request, explaining that
although Mr. Williams had been “very cooperative
and willing to turn himself in,” he was not
ultimately arrested because the police did not have
his warrant on file. (Lioi Dep. 228:1-18, ECF No.
174-3, Ex. 1; see also ECF No. 175-11, Ex. 9). Later,
on Sunday, November 16, 2008, Mr. Williams
informed Lioi that there was a separate assault
warrant from March 7, 2003, for a Maryland
resident named “Cleaven Williams.” (Lioi Dep.
228:19-229:2, ECF No. 174-3, Ex. 1). At Mr.
Williams’ s request, Lioi issued a second letter
indicating this earlier warrant for a “Cleaven
Williams” “is very limited and should not be
considered to be [Mr. Williams] based on the name
Russell characterized this simply as a “lengthy period of time.”
(Russell Dep. 115:1-5, ECF No. 175-4, Ex. 2).

App. 96
alone.”5 (Id. at 234:10-235:16; see also ECF No. 17512, Ex. 10). These letters, according to Mr. Williams,
were requested from Lioi because Mr. Williams’s
lawyers told him they would be “beneficial” to obtain.
(Mr. Williams Dep. 154:19-155:20, ECF No. 144-8,
Ex. 6). Neither of these two letters “was ever
presented by [Mr.] Williams to, or considered by, a
judge, Commissioner, or any third party.” (Lioi Mot.
Summ. J. at p. 4, ECF No. 146-1).
On Monday, November 17, 2008, Mr. Williams
and Lioi had the following text exchange:
Mr. Williams: “Cool . . . I just left my home 2
meet w/my lawyer . . . I saw my wife drive by . . .
can I go home or what?”
Lioi: I wouldn’t be alone with her. She could say
you did anything. Have a witness with you if you
meet.
Mr. Williams: Thanks Dan . . . Can she do
another protection order & try 2 keep me from
the house?
Lioi: She could. I would avoid her. She could call
the police and say u have the warrant and she is
afraid of you. It would force our hand to serve
the warrant.
(Mr. Williams’s Texts at p. 9, ECF No. 175-6, Ex. 4).

The other warrant from March 7, 2003, was for Mr. Williams,
but this was determined “[a]fter the fact.” (Lioi Dep. 236:22237:11, ECF No. 174-3, Ex. 1). Regardless, the letter Lioi issued
never affirmatively stated Mr. Williams was not the subject of
the warrant, but rather that Mr. Williams should not be
presumed to be the same Cleaven Williams from the March
2003 warrant based on name alone.

5

App. 97
Ultimately, Mr. Williams did not turn himself in
on Tuesday, November 18, 2008. Rather, Mr.
Williams travelled to a Baltimore District Court on
Monday, November 17, 2008, where Ms. Williams
was seeking a protective order against him. Mr.
Williams attacked Ms. Williams outside the
courthouse, stabbing her repeatedly and ultimately
killing her and their unborn child in the process. (PI.
Opp’n at p. 17, ECF No. 175-1); State v. Williams,
Case No. 108350013 (Cir. Ct. Balt. City Feb. 25,
2011); State v. Williams, Case No. 11-0672 (Ct. Spec.
App. April 5, 2013) (affirming conviction), Mr.
Williams was found guilty and sentenced to life in
prison. (Id.)
The plaintiffs commenced this action on
November 15, 2011, by filing a complaint in the
Circuit Court for Baltimore City, Maryland. The
defendants removed the case to this court on
January 19, 2012. On July 18, 2012, the court denied
Mr. Lioi’s motion to dismiss but granted the BCPD’s
motion to dismiss the claims against it. The Fourth
Circuit affirmed in an unpublished decision.
Robinson v. Lioi, 536 Fed. App’x 340 (2013), cert,
denied, 134 S. Ct. 1515 (2014). On June 12, 2014, the
plaintiffs filed an amended complaint adding Mr.
Russell as a defendant. The amended complaint
included claims against defendants for violating Ms.
Williams’s due process rights under 42 U.S.C. § 1983
(Count I), and for conspiring to violate Ms.
Williams’s constitutional rights under 42 U.S.C. §
1985 (Count III). (Am. Compl., ECF No. 87). It also
contained state law tort claims for wrongful death
(Count IV), survival action (Count V), battery (Count
VI), gross negligence (Count VII), reckless
endangerment (Count VIII), intentional infliction of

App. 98
emotion distress (Count IX), common law conspiracy
(Count X), conversion (Count XI), and fraud and
intentional misrepresentation (Count XII). (Id.). On
September 22, 2016, Russell and Lioi each filed a
motion for summary judgment on Counts I, III—V,
and VII-X. (Russell Mot. Summ. J., ECF No. 144;
Lioi Mot. Summ. J., ECF No. 146). The plaintiffs
opposed the motions (Robinson Opp’n, ECF No. 174;
Robinson Opp’n, ECF No. 175), and Russell and Lioi
filed responses. (Russell Resp., ECF No. 182; Lioi
Resp., ECF No. 186).6
LEGAL STANDARD
The case was removed to this court pursuant to
28 U.S.C. 1441(c) because plaintiffs’ § 1983 claims
are founded in federal law and arise under the laws
of the United States within the meaning of 28 U.S.C.
§ 1331. Accordingly, this court has federal question
jurisdiction. See 28 U.S.C. § 1331.
Federal Rule of Civil Procedure 56(a) provides
that summary judgment should be granted “if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a)
Count II alleging a violation of § 1983 against the BCPD was
previously dismissed by this court. (ECF No. 24). Mr. Williams
had not filed a Motion for Summary Judgment; the claims
against Mr. Williams include: Count III alleging conspiracy;
Count IV alleging wrongful death; Count V alleging survival
action; Count VI alleging battery; Count VII alleging gross
negligence; Count VIII alleging reckless endangerment; Count
IX alleging IIED; Count X alleging common law conspiracy;
Count XI alleging conversion; and Count XII alleging fraud and
intentional misrepresentation.

6

App. 99
(emphases added). “A dispute is genuine if ‘a
reasonable jury could return a verdict for the
nonmoving party.’ ” Libertarian Party of Va. v. Judd,
718 F.3d 308, 313 (4th Cir. 2013) (quoting Dulaney v.
Packaging Corp. of Am., 673 F.3d 323, 330 (4th Cir.
2012)). “A fact is material if it ‘might affect the
outcome of the suit under the governing law. ”’ Id.
(quoting Anderson v. Liberty Lobby, Inc., All U.S.
242, 248, 106 S.Ct. 2505, 91 L. Ed. 2d 202 (1986)).
Accordingly, “the mere existence of some alleged
factual dispute between the parties will not defeat
an otherwise properly supported motion for
summary judgment [.]’' Anderson, 477 U.S. at 24718, 106 S.Ct. 2505. The court must view the evidence
in the light most favorable to the nonmoving party,
Tolan v. Cotton, — U.S. — 134 S.Ct. 1861, 1866, 188
L. Ed. 2d 895 (2014) (per curiam), and draw all
reasonable inferences in that party's favor, Scott v.
Harris, 550 U.S. 372, 378, 127 S.Ct. 1769, 167 L. Ed.
2d 686 (2007) (citations omitted); see also Jacobs v.
N. C. Admin. Office of the Courts, 780 F.3d 562, 56869 (4th Cir. 2015). At the same time, the court must
“prevent factually unsupported claims and defenses
from proceeding to trial.” Bouchat v. Balt. Ravens
Football Club, Inc., 346 F.3d 514, 526 (4th Cir. 2003)
(quoting Drewitt v. Pratt, 999 F.2d 774, 778-79 (4th
Cir. 1993)).
ANALYSIS
I. Plaintiffs’ Motion to Strike Lioi’s Motion for
Summary Judgment
Plaintiffs move to strike Lioi’s motion for
summary judgment, arguing that Lioi’s motion was

App. 100
untimely filed. Plaintiffs note that on May 5, 2014,
this court granted a “Joint Motion to Modify
Scheduling Order” and set the deadline for filing
dispositive motions as September 14, 2014.
(Robinson Mot. to Strike ¶3, ECF No. 153). The
scheduling order was modified on five separate
occasions. (Id. at ¶¶4-10). The motions to modify the
scheduling orders contained language stating:
“Defendant Dan Lioi joins this motion with respect
to the extension of the discovery deadline for all
parties and intends to submit a separate motion
regarding the deadline for dispositive motions.” (Id.
at ¶¶6 - 9). Despite this language, Lioi failed to file a
motion to extend his deadline for dispositive
motions, but nonetheless filed his Motion for
Summary Judgment on September 22, 2016. (Id. at
¶ 12). Subsequently, plaintiffs filed the instant
Motion to Strike Lioi’s Motion for Summary
Judgment on October 12, 2016. (Robinson Mot. to
Strike, ECF No. 153).
Lioi argues he was not required to file a motion
to modify the scheduling order because he can file a
dispositive motion “after the close of all discovery.”
(Lioi Opp’n ¶¶ 2-3, ECF No. 166). Lioi further
contends the matter was complicated when Russell
was formally added to the case, because Lioi did not
“contemplate . . . [the need] to file a separate formal
motion to modify the scheduling order to extend the
date for dispositive motions from September 17,
2014.” (Id. at ¶7). Furthermore, Lioi argues his
motion did not prejudice plaintiffs because he had
advised the “Court and the parties of [his] intention
to file a dispositive motion in this case, including in
all Status Reports to the Court.” (Id. at ¶5). For
example, on February 5, 2014, Lioi submitted a

App. 101
status report to this court stating “[a]s of February 3,
2014, Defendant does intend to file a dispositive pretrial motion.” (Lioi Status Rept. at p. 2, ECF No 73).
Lastly, in the alternative, Lioi “cross-moves to
modify the Scheduling Order to [extend his filing
deadline for dispositive motions] on or before
September 22, 2016, the same deadline accorded to
Defendant Melvin Russell, with whom Lioi is, in all
material respects, similarly situated.” (Lioi Opp’n ¶
13, ECF No. 166).
Plaintiffs’ argument has merit; defendant Lioi
should have been aware of the filing deadlines and
language contained in the modified scheduling
orders. Accordingly, he should have filed a motion to
extend the deadline for his dispositive motions prior
to filing his Motion for Summary Judgment. Indeed,
the language contained in the numerous Joint
Motions to Modify Scheduling Order is clear:
“Defendant Dan Lioi . .: intends to submit a separate
motion regarding the deadline for dispositive
motions.” (See, e.g., Joint Mot. to Modify Sch. Order
¶3, ECF No. 137). Nonetheless, defendant Lioi’s
Cross-Motion to Modify Scheduling Order will be
granted. Despite their arguments to the contrary,
plaintiffs have not been prejudiced by Lioi’s filing.
Plaintiffs received “multiple extensions of time to
respond” to Lioi’s motion, and the motion has been
fully briefed. (Lioi Resp. ¶¶3—4, ECF No. 179). Lioi
is, as he argues, similarly situated to Russell, and it
should not have been a surprise that Lioi intended to
file a dispositive motion, given that Lioi had stated
his intention in status reports. Accordingly,
plaintiffs’ Motion to Strike will be denied, Lioi’s
Cross-Motion will be granted, and the court will
consider Lioi’s Motion for Summary Judgment.

App. 102

II. State-Created Danger Doctrine
“Section 1983 imposes liability on state actors
who cause the ‘deprivation of any rights, privileges,
or immunities secured by the Constitution.’” Doe v.
Rosa , 795 F.3d 429, 436 (4th Cir. 2015), cert , denied
sub nom. John Doe 2 v. Rosa, 136 S. Ct. 811 (2016).
“Under established precedent, these constitutional
rights include a Fourteenth Amendment substantive
due process right against state actor conduct that
deprives an individual of bodily integrity.” Id. at 43637 (citing Hall v. Tawney, 621 F.2d 607, 612-13 (4th
Cir. 1980)). However, “[a]s a general matter . . . a
State’s failure to protect an individual against
private violence simply does not constitute a
violation of the Due Process Clause.” DeShaney v.
Winnebago Cnty. of Dep't of Soc. Servs.’ , 489 U.S.
189, 197 (1989). Indeed, liability of state actors is
significantly limited, as the Supreme Court
explained in DeShaney.
[N]othing in the language of the Due Process
Clause itself requires the State to protect the
life, liberty, and property of its citizens
against invasion by private actors. The
Clause is phrased as a limitation on the
State's power to act, not as a guarantee of
certain minimal levels of safety and security.
It forbids the State itself to deprive
individuals of life, liberty, or property
without “due process of law,” but its
language cannot fairly be extended to impose
an affirmative obligation on the State to
ensure that those interests do not come to

App. 103
harm through other means. Nor does history
support such an expansive reading of the
constitutional text. Like its counterpart in
the Fifth Amendment, the Due Process
Clause of the Fourteenth Amendment was
intended to prevent government from
abusing [its] power, or employing it as an
instrument of oppression[.] Its purpose was
to protect the people from the State, not to
ensure that the State protected them from
each other.
Id. at 195 (emphasis added) (internal citations and
quotation marks omitted). Accordingly, the
Supreme Court has noted “state actor liability might
attach in two narrow circumstances.” Rosa, 795 F.3d
at 437. The first exception, “when the State takes a
person into its custody and holds him there against
his will,” is not at issue here.7 Id. (citing DeShaney,
489 U.S. at 199-200). Rather, at issue is the second
exception, the “state-created danger exception,”
which arises “[w]hen the state itself creates the
dangerous situation that resulted in a victim's
injury.” Id. at 438 (citing Finder v. Johnson, 54 F.3d
1169, 1177 (4th Cir. 1995)). “In such instances, the
state is not merely accused of a failure to act; it
becomes much more akin to an actor itself directly
causing harm to the injured party.” Pinder, 54 F.3d
at 1177. It should be noted, however, that this stateThis court already decided the first exception does not apply
because “[e]ven drawing all inferences in favor of Ms. Williams
as the non-moving party, the court sees no evidence that Ms.
Williams faced ‘a restraint of personal liberty . . . triggering the
protections of the Due Process Clause.’” (ECF No. 24, pp. 8-9)
(citing DeShaney, 489 U.S. at 200).

7

App. 104
created danger exception is a narrow exception
requiring some affirmative action, and not inaction,
attributable to the state, creating or enhancing the
danger; “[i]t cannot be that the state ‘commits an
affirmative act’ or ‘creates a danger’ every time it
does anything that makes injury at the hands of a
third party more likely.” Id. at 1175. Furthermore,
“[w]hile it is true that inaction can often be artfully
recharacterized as ‘action,’ courts should resist the
temptation to inject this alternate framework into
omission cases by stretching the concept of
‘affirmative acts’ beyond the context of immediate
interactions between the officer and the plaintiff.”
Id. at 1176, fn 1.
The leading Fourth Circuit case regarding the
state-created danger doctrine, as applicable here, is
Pinder v. Jonhnson. 54 F.3d 1169 (4th Cir. 1995).
There, Carol Pinder brought a § 1983 action
“seek[ing] to impose civil liability against Officer
Donald Johnson of the Cambridge, Maryland, Police
Department for his failure to safeguard her children
from the criminal depredations of plaintiffs exboyfriend.” Id. at 1171-72. Officer Johnson had
responded to a call reporting a domestic disturbance
stemming from an incident where Ms. Pinder’s
former boyfriend, Don Pittman, had broken into her
home. Id. at 1172. Ms. Pinder told Officer Johnson
that Mr. Pittman had been “abusive and violent,”
and that he had “pushed her, punched her, and
threw various objects at her.” Id. Ms. Pinder also
told Officer Johnson that Mr. Pittman had
threatened “both Pinder and her children, saying he
would murder them all.” Id. Officer Johnson arrested
Mr. Pittman and informed Ms. Pinder she could
return to work that evening because “Pittman would

App. 105
be locked up overnight.” Id. Officer Johnson
ultimately filed lesser charges against Mr. Pittman,
who was released from custody that same night. Id.
Mr. Pittman then returned to Ms. Pinder ’s home
and set fire to it; Ms. Pinder’s three children, who
were home asleep, died of smoke inhalation. Id. The
Fourth Circuit rejected Ms. Pinder’s attempts to
characterize Officer Johnson’s “actions”—including
making assurances to Ms. Pinder and charging Mr.
Pittman with a lesser charge—as “affirmative
misconduct.” Id. at 1175. Accepting such an
argument, the Fourth Circuit concluded, would
ensure that “every representation by the police and
every failure to incarcerate would constitute
‘affirmative actions,’ giving rise to civil liability.” Id.
And although the Fourth Circuit acknowledged that
“at some point on the spectrum between action and
inaction, the state’s conduct may implicate it in the
harm caused,” “[n]o amount of semantics can
disguise the fact that the real ‘affirmative act’ here
was committed by Pittman, not by Officer Johnson.”
Id. Accordingly, finding Pinder’s case to be “purely
an omission claim,” the Fourth Circuit found Officer
Johnson was entitled to qualified immunity. Id. at
1176, 1179.
In a more recent case, Doe v. Rosa, the Fourth
Circuit upheld the district court’s grant of summary
judgment in favor of the defendant. Doe v. Rosa,795
F.3d 429 (4th Cir. 2015), cert. denied sub nom. John
Doe 2 v. Rosa, 136 S. Ct. 811, 193 L. Ed. 2d 715
(2016). There, the Does alleged a § 1983 violation
against John W. Rosa, president of The Citadel, The
Military College of South Carolina, for allegedly
covering up complaints that Louis ReVille, a camp
counselor, was sexually abusing minor camp

App. 106
attendees. Id. at 436. Rosa’s “actions” in failing to
report the complaints, the plaintiffs argued, allowed
ReVille to remain free and continue abusing other
minors. Id. In concluding the Does could not
establish a § 1983 state-created danger claim against
Rosa, the Fourth Circuit noted that the abuser,
Louis ReVille, had been abusing the Does for years
before Rosa became aware that he was a pedophile,
and therefore Rosa “could not have created a danger
that already existed.” Id. at 439 (citing Armijo v.
Wagon Mound Pub. Sch.,159 F.3d 1253, 1263 (10th
Cir.1998)). The court also found Rosa did not “create
or increase the risk of the Does’ abuse,” because
“allowing continued exposure to an existing danger
by failing to intervene is not the equivalent of
creating or increasing the risk of that danger.” Id.
Furthermore, the court found that Rosa’s failure to
report the complaints regarding ReVille to the
Citadel police or to a Title IX agency could not
constitute an “affirmative act”; rather, the claim
against Rosa was rather “purely an omission claim,”
and “[n]o amount of semantics can disguise the fact
that the real ‘affirmative act’ here was committed by
[ReVille], not by [Rosa].” Id. at 441 (citing Pinder, at
1175-76).
III. Russell’s and Lioi’s § 1983 Liability
Russell and Lioi argue that plaintiffs’ § 1983
claim must fail because Russell and Lioi did not
commit any affirmative acts that created or
enhanced the danger to Ms. Robinson. This court
previously denied Lioi’s Rule 12(b)(6) motion to
dismiss, and the United States Court of Appeals for
the Fourth Circuit affirmed the judgment in an

App. 107
unpublished decision, Robinson v. Lioi. 536 F. App’x
340 (4th Cir. 2013). At the 12(b)(6) stage, this court
and the Fourth Circuit accepted as true all material
facts alleged in plaintiffs’ complaint, and drew all
reasonable inferences in plaintiffs’ favor. The Fourth
Circuit stressed certain affirmative acts alleged in
the complaint, including that Lioi, inter alia: (1)
“conspired with Cleaven Williams” to help him avoid
arrest, (2) “actively interfered with the execution of
the warrant by . . . failing to turn the warrant over
to the proper unit with[in] the BCPD responsible for
its execution,’’ (3) warned “Mr. Williams and g[ave]
him advice about how to avoid service of the
warrant,” and (4) “lied to avoid service of the arrest
warrant by falsely contending that it could not be
found.” Id. at 344. The Fourth Circuit found these
alleged acts amounted to “more than a mere passive
failure to act,” id., that “affirmatively placed [Mrs.
Williams] in a position of danger,” id. at 345.
However, at the summary judgment stage of
litigation, plaintiffs’ allegations must be supported
by admissible evidence. Plaintiffs have not proffered
sufficient evidence of a conspiracy, of any active
interference with the warrant process, or of Russell
or Lioi advising Mr. Williams on how to avoid
service. Rather, as discussed below in further detail,
I find that Russell and Lioi are entitled to summary
judgment because they did not: (a) commit any
“affirmative acts,” that (b) “created or enhanced the
danger” to Ms. Robinson. Additionally, Russell and
Lioi are entitled to qualified immunity, as discussed
in Section IV, infra.
A. Affirmative Acts

App. 108
Defendants Russell and Lioi argue that this is a
case of “inaction,” and that their actions amount to a
“failure to guarantee the arrest and detention (for an
unspecified period of time) of Mr. Williams on
November 13, 2008.” (Russell Mot. Summ. J. at p.
19, ECF No. 144-1). The record supports the
defendants’ contention that this is an omission
claim, as in Pinder and Rosa, rather than
“affirmative acts” of the type that could result in
liability.
First, while there is evidence that defendants
texted and conversed with Mr. Williams between
Sunday, November 9, 2008, and Monday, November
17, 2008, defendants primarily were coordinating the
date and logistics of Mr. Williams’s voluntary
surrender, and indeed on November 17, 2008,
advised him to avoid interactions with his wife.
These messages—when viewed in conjunction with
the fact Mr. Williams was not only willing to
surrender himself voluntarily, but that he attempted
to do so on Thursday, November 13, 2008—suggest
that defendants merely used their discretion and
best judgment to allow Mr. Williams to select a later
date of self-surrender.
Second, plaintiffs have failed to present
sufficient evidence to show that Russell or Lioi were
themselves responsible for any of the alleged
deficiencies with the warrant process. The fact that
the physical warrant was misplaced when Mr.
Williams attempted to surrender himself on
Thursday, November 13, 2008, and later found in
Officer Adrienne Byrd’s patrol car, does not suggest
Lioi purposely hid the warrant or prevented Mr.
Williams’s arrest. Moreover, even if Mr. Williams
had been arrested that night, he likely would have

App. 109
been released within twenty-four hours, as discussed
in further detail infra, which would have provided
Mr. Williams the same opportunity to murder his
wife on Monday, November 17, 2008.
The Supreme Court’s decision in Town of Castle
Rock, Colo. v. Gonzales, where the Court stated a
“warrant . . . remains within the discretion of the
police whether and when to execute it,” is
instructive. 545 U.S. 748, 764 (2005). While Castle
Rock concerned an alleged procedural, rather than
substantive, due process violation, the Court also
acknowledged that “the benefit that a third party
may receive from having someone else arrested for a
crime generally does not trigger protections under the
Due Process Clause , neither in its procedural nor in
its ‘substantive’ manifestations.” Id. at 768. The
Court continued, stating “the Fourteenth
Amendment . . . did not create a system by which
police departments are generally held financially
accountable for crimes that better policing might
have prevented.” Id. at 768-69. This is precisely
what plaintiffs seek to do here by holding Russell
and Lioi liable for not having Mr. Williams arrested,
suggesting that “better policing” might have
prevented Ms. Williams’s murder.
Furthermore, as the court stated in Pinder ,
“[w]hile it is true that inaction can often be artfully
recharacterized as ‘action,’ courts should resist the
temptation to inject this alternate framework into
omission cases by stretching the concept of
‘affirmative acts’ beyond the context of immediate
interactions between the officer and the plaintiff
Pinder, 54 F.3d at 1176, fn. 1 (emphasis added).
Here, neither Russell nor Lioi had any “immediate
interactions” with Ms. Williams. Ultimately, this

App. 110
case is governed by Pinder and Rosa, and based on
the evidence, Russell and Lioi ’s conduct never
reached the “point on the spectrum between action
and inaction, [where] the state’s conduct []
implicate[s] it in the harm caused.” Pinder , 54 F.3d
at 1175.
B. Creating or Enhancing the Danger to
Ms. Williams
Even if Russell and Lioi’s conduct constitutes
“affirmative acts,” however, plaintiffs would still
need to demonstrate these acts “created or
substantially enhanced the danger which resulted”
in Ms. Williams death. Rosa, 795 F.3d at 439. They
have failed to do so.
Plaintiffs argue that Russell and Lioi’s failure to
arrest Mr. Williams—either on Thursday, November
13th, 2008, or at some time prior to the murder—
directly caused Ms. Williams’s death by allowing Mr.
Williams to remain free until he murdered his wife.
To support their argument, they selectively cite to
portions of Russell and Lioi’s deposition testimony.
For example, plaintiffs cite to a section of Lioi’s
deposition testimony where Lioi stated: “If [Mr.
Williams had] been arrested at that time, then yeah,
he probably wouldn't have had that window of
opportunity right then [to murder his wife].” (Lioi
Dep. 308:20-309:4, ECF No. 174-3, Ex. 1) (emphasis
added). However, the “time” Lioi mentions during
this portion of his deposition testimony is the
morning of the murder on Monday, November 17,
2008. Id. Of course if Mr. Williams had been
arrested on the day of the murder, he would not have
had that specific opportunity to murder his wife.

App. 111
However, it does not follow from Lioi’s statement at
deposition that any act of Lioi’s created or enhanced
the danger to Ms. Williams. Indeed, Lioi could not
have arrested Mr. Williams that day because he did
not know Mr. Williams’s exact location; there was
also no known urgency to do so because Mr. Williams
was scheduled to turn himself in the next day.8
Similarly, plaintiffs cite to a portion of Russell’s
deposition testimony where Russell expressed he
was “very grievous” when he saw Ms. Williams’s
slain body because if “[Mr. Williams] had been
arrested then, you know, Veronica would probably
still be with us.” (Russell Dep. 140:2-22, ECF No.
175-4, Ex. 2).
Cutting against plaintiffs’ argument is the
Fourth Circuit’s language in Doe v. Rosa, where the
court clarified that “allowing continued exposure to
an existing danger by failing to intervene is not the
equivalent of creating or increasing the risk of that
danger.” Rosa, 795 F.3d at 439; There is little doubt
that Mr. Williams posed an “existing danger” to Ms.
Williams given his earlier abuse of Ms. Williams.
Furthermore, there is no doubt that the ultimate act
of murder was earned out by Mr. Williams, and not
by defendants Russell and Lioi.
Additionally, plaintiffs’ argument that Russell or
Lioi created or enhanced the danger to Ms. Williams
by failing to ensure Mr. Williams’s arrest on or prior
Plaintiffs, on several occasions, argue that Russell or Lioi
knew Mr. Williams’s “exact location” and failed to execute the
warrant. (See, e.g.,PI. Opp, at p. 25, fn. 28, ECF No. 141-1)
(“This text message also represents yet another time in which
either Major Russell or Deputy Major Lioi knew of Mr.
Williams’s location and failed to execute his warrant.”).
However the texts that plaintiffs reference never actually
provide Mr. Williams’s “exact location.” Id.

8

App. 112
to his original date of voluntary surrender,
Thursday, November 13, 2008, is speculative at best
Indeed, defendants provide compelling evidence that
even if they had arrested Mr. Williams on Thursday,
November 13, 2008, “the holding period on a
misdemeanor warrant for second-degree assault is
likely to be less than 24 hours.” (Russell Mot. Summ.
J. at p. 23, ECF No. 144-1; Stanford O’Neill Franklin
Aff. ¶¶ 51-53, ECF No. 144-13, Ex. 11). Stanford
O’Neill Franklin, an officer with thirty-four years of
law enforcement experience, submitted an affidavit
stating that if Mr. Williams had been arrested, “it is
reasonable to believe [Mr. Williams] would have
been released within 24 hours on his personal
recognizance,” because “an established member of
the community with local ties, no violent criminal
history and no apparent danger to society is
[generally] released on [his] personal recognizance.”
(Stanford O’Neill Franklin Aff. ¶¶ 53, ECF No. 14413, Ex. 11). Even if Mr. Williams were forced to post
bail, Franklin also attested that in the context of
“misdemeanor
assault
arrests,”
he
“never
experienced an arrestee receiving a bail too high,
preventing immediate posting.” Id. Therefore, Mr.
Williams likely would have been free to murder his
wife the following Monday. Additionally, it is highly
speculative to suggest that Monday, November 17,
2008, was Mr. Williams’s only opportunity to attack
his wife, as plaintiffs contend. Indeed, at deposition
Mr. Williams suggested that he knew where his wife
was because he had “sent her to Carlin [Robinson’s]
house” and he knew “where she lived at.” (Mr.
Williams Dep. 148:14-149:13, 144-8, Ex. 6).
Ultimately, plaintiffs have failed to establish
that Russell or Lioi committed affirmative acts that

App. 113
created or enhanced the danger to Ms. Williams.
Accordingly, Russell and Lioi are entitled to
summary judgment on plaintiffs’ § 1983 statecreated danger claim in Count I.
IV. Qualified Immunity
In the alternative, Russell and Lioi argue that
they are entitled to qualified immunity because,
inter alia, “it was not clearly established in 2008
that a supervisory police officer’s reasonable exercise
of discretion in attempting to facilitate a citizen’s
voluntary surrender would violate the constitutional
rights of his murder victim.” (Russell Mot. Summ. J.
at p. 27, ECF No. 144-1; Lioi Mot. Summ. J. at p. 13,
ECF No. 146-1). Government actors, such as
defendants Russell and Lioi, are entitled to qualified
immunity “insofar as their conduct does not violate
clearly established statutory or constitutional rights
of which a reasonable person would have known.”
Harlow v. Fitzgerald,457 U.S. 800, 818 (1982).
“Qualified immunity protects law enforcement
officers from ‘bad guesses in gray areas’ and ensures
that they are liable only ‘for transgressing bright
lines.’ Schultz v. Braga, 455 F.3d 470, 476 (4th Cir.
2006) (quoting Maciariello v. Sumner, 973 F.2d 295,
298 (4th Cir.1992)). Furthermore, qualified
immunity “balances two important interests—the
need to hold public officials accountable when they
exercise power irresponsibly and the need to shield
officials from harassment, distraction, and liability
when they perform their duties reasonably.” Pearson
v. Callahan, 555 U.S. 223, 231 (2009).
In determining whether qualified immunity
applies, courts previously were required to follow a

App. 114
“two-step sequence”; they decided first “whether the
facts that a plaintiff has alleged . . . make out a
violation of a constitutional right,” and second,
“whether the right at issue was ‘clearly established’
at the time of a defendant’s alleged misconduct.” Id.
at 232. Courts now have the discretion, however, to
decide “which of the two prongs of the qualified
immunity analysis should be addressed first in light
of the circumstances in the particular case at hand.”
Id. at 236. The second prong, “whether the right at
issue was ‘clearly established’ at the time of a
defendant’s alleged misconduct,” Pearson, 555 U.S.
at 232, requires the right to be “sufficiently clear
that every reasonable official would [have
understood] that what he is doing violates that
right.” Reichle v. Howards, 566 U.S. 658, 132 S. Ct.
2088, 2093 (2012) (quoting Ashcroft v. al-Kidd, 563
U. S. 731, 741 (2011)) (internal quotation marks
omitted). “In other words, ‘existing precedent must
have placed the statutory or constitutional question
beyond debate.’” Id. (quoting Ashcroft , 563 U.S. at
741). “Existing precedent” does not, however, require
a case directly on point. United States v. Lanier, 520
U.S. 259, 271 (1997) (“The easiest cases don’t even
arise.”). “In the end, the lodestar for whether a right
was clearly established is whether the' law gave the
officials fair warning that their conduct was
unconstitutional.” Iko v. Shreve , 535 F.3d 225, 238
(4th Cir. 2008) (quoting Ridpath v. Bd. Of Governors
Marshall Univ., 447 F.3 d 292, 313 (4th Cir. 2006))
(internal citations and quotation marks omitted).
Even if the analysis in Section III is incorrect,
and the plaintiffs’ proffered evidence is sufficient to
prove a constitutional violation, the facts are not
sufficient to show that a reasonable officer in either

App. 115
defendant’s position would have understood he was
violating that right. Russell’s and Lioi’s actions,
when viewed in sum, amount to using their
discretion not to aggressively serve an arrest
warrant and instead allow Mr. Williams to delay his
date of voluntary surrender by several days.9 A
reasonable police officer in Lioi and Russell’s
position could not have known that the failure to
guarantee Mr. William’s arrest on a misdemeanor
warrant prior to November 17, 2008, would violate
Ms. Williams’s constitutional rights.
A. Conspiracy (Counts 3 and 10)
Plaintiffs allege Russell, Lioi, and Mr. Williams
conspired to violate Ms. Williams rights pursuant to
42 U.S.C. § 1985 and the common law.10 “Under
Maryland law, civil conspiracy is defined as the
‘combination of two or more persons by an
agreement or understanding to accomplish an
unlawful act or to use unlawful means to accomplish
an act not in itself illegal, with the further
requirement that the act or the means employed
must result in damages to the plaintiff.’” Marshall v.
James B. Nutter & Co., 758 F.3d 537, 541 (4th Cir.
2014) (quoting Hoffman v. Stamper, 867 A.2d 276,
290 (Md. 2005)). Furthermore, “[i]n addition to

Plaintiffs also repeatedly highlight two “letters” that Lioi
wrote for Mr. Williams as evidence that Lioi conspired with Mr.
Williams; however, these letters were requested by Mr.
Williams upon his lawyer’s advice, and there is nothing
inaccurate regarding their contents.
10 The court notes that Russell’s alleged involvement in any
“conspiracy” is less than Lioi’s alleged involvement.
9

App. 116
proving an agreement, ‘the plaintiff must also prove
the commission of an overt act, in furtherance of the
agreement, that caused the plaintiff to suffer actual
injury.’” Id. (citing Hoffman, A.2d at 290). In
comparison, to establish a claim under 42 U.S.C. §
1985(3),11 which creates a private cause of action
against “two or more persons . . . [who] conspire . . .
for the purposes of depriving . . . any person . . . of
the equal protection of the laws, or of equal
privileges and immunities under the laws,” 42
U.S.C. § 1985(3), a plaintiff must prove the
following:
(1) A conspiracy of two or more persons, (2)
who are motivated by a specific class-based,
invidiously discriminatory animus to (3)
deprive the plaintiff of the equal enjoyment
of rights secured by the law to all, (4) and
which results in injury to the plaintiff as (5)
a consequence of an overt act committed by
the defendants in connection with the
conspiracy.
Facey v. Dae Sung Corp., 992 F. Supp. 2d 536, 540
(D. Md. 2014) (citing A Society Without a Name v.
Virginia, 655 F.3d 342, 346 (4th Cir. 2011)). In order
to prove a section 1985 conspiracy “a claimant must
show an agreement or a ‘meeting of the minds' by
defendants to violate the claimant's constitutional
rights.” Id. at 541 (citing Simmons v. Poe, 47 F.3d
1370, 1377 (4th Cir. 1995)) (emphasis added).
The parties do not clarify whether Count 3 is brought
pursuant to 42 U.S.C. §1985(1) or § 1985(3). I consider this
count to be brought pursuant to § 1985(3), given the allegations
in the complaint and discussion in the briefing.
11

App. 117
Furthermore, as the Fourth Circuit has clarified,
this standard is “relatively stringent,” and under
this standard, courts “rarely, if ever, [find] that a
plaintiff has set forth sufficient facts to establish a
section 1985 conspiracy, such that the claim can
withstand a summary judgment motion.” Simmons,
47 F.3d at 1377.
Defendants first argue these conspiracy claims
fail because “agents of a government entity cannot
conspire with each other” “under the ‘intracorporate
conspiracy doctrine[.]” (Russell Mot. Summ. J. at p.
28, ECF No. 144-1). The intracorporate conspiracy
doctrine, however, does not apply when actors
perform “unauthorized acts.” Facey, 992 F. Supp. at
536 (citing Painter' s Mill Grille, LLC v. Brown, 716
F.3d 342, 353 (4th Cir. 2013)) (explaining the
intracorporate conspiracy doctrine will not apply
“where the agent’s acts were not authorized by the
corporation.”). Assuming Russell or Lioi committed
“unauthorized acts,” an issue I do not decide, this
defense would not assist defendants.
Regardless of whether the “intracorporate
conspiracy doctrine” defense applies, plaintiffs have
failed to set forth sufficient facts to establish their
conspiracy counts. As an initial matter, § 1985 is
inappropriate because Russell and Lioi were not
“motivated by a[ny] specific class-based, invidiously
discriminatory animus.” Next, even assuming
Russell and Lioi permitted Mr. Williams to delay his
date of voluntary surrender until Tuesday,
November 18, 2008, this does not establish that the
“defendants each conspired with the other to violate
the constitutional rights of plaintiffs and the
decedent and to proximately cause her death.” (Am.
Compl ¶66, ECF No. 87). Furthermore, both causes

App. 118
of action contain an element of causation. For
example, regarding civil conspiracy, plaintiffs must
establish that the “act or the means employed . . .
result[ed] in damages to the plaintiff.” James B.
Nutter & Co., 758 F.3d at 541 (quoting Hoffman, 867
A.2d at 290) (emphasis added). And the fourth
element of a § 1985 claim requires that the
conspiracy “result [] in injury to the plaintiff. ” Facey,
992 F. Supp. 2d at 540 (emphasis added). As
discussed above, the evidence that any actions
undertaken by Russell and Lioi resulted in Ms.
Williams’s murder is too speculative to support the
plaintiffs’ claim. Accordingly, the court will grant the
defendants’ motion for summary judgment on
Counts 3 and 10.

B. Gross Negligence (Count 7)
Defendants Russell and Lioi are entitled to
summary judgment on plaintiffs’ gross negligence
claims. Under Maryland law, gross negligence is
defined as:
[A]n intentional failure to perform a
manifest duty in reckless disregard of the
consequences as affecting the life . . . of
another, and also implies a thoughtless
disregard to the consequences without the
exertion of any effort to avoid them. Stated
conversely, a wrongdoer is guilty of gross
negligence or acts wantonly and willfully
only when he inflicts injury intentionally or is

App. 119
so utterly indifferent to the rights of others
that he acts as if such rights did not exist.
Gray v. Kern, 124 F. Supp. 3d 600, 611 (D. Md. 2015)
(quoting Marriott Corp. v. Chesapeake & Potomac
Telephone Co. of Md., 723 A.2d 454, 462 (Md. Ct.
Spec. App. 1998)) (emphasis added). In addition to
proving defendants Russell and Lioi “inflict [ed]
injury intentionally,” or were “so utterly indifferent
to the rights of [Ms. Williams] that [defendants
acted] as if such rights did not exist,” id., plaintiffs
must establish, “as with other negligence claims, [] a
duty of care, a breach of that duty, and damages as a
proximate cause of the breach.” Pasternak & Fidis,
P.C. v. Recall Total Info. Mgmt., Inc., 95 F. Supp. 3d
886, 895 (D. Md. 2015) (quoting Swedish Civil
Aviation Admin, v. Project Mgmt. Enters., Inc., 190
F. Supp. 2d 785, 803 (D. Md. 2002)). “Ordinarily,
unless the facts are so clear as to permit a conclusion
as a matter of law, it is for the trier of fact to
determine whether a defendant's negligent conduct
amounts to gross negligence.” Cooper v. Rodriguez,
118 A.3d 829, 846 (Md. 2015) (quoting Taylor v.
Harford Cnty. Dep't of Social Servs., 862 A.2d 1026,
1034 (Md. 2004)).
Defendants Russell and Lioi first argue they are
entitled to “public official immunity” for their
discretionary acts. “Common law public official
immunity applies to ‘public officials (as opposed to
mere employees) who perform negligent acts during
the course of their discretionary (as opposed to
ministerial) duties.’” Cooper, 118 A.3d at 848
(quoting Houghton v. Forrest, 989 A.2d 223, 227 (Md.
2010)). “If those three conditions are met, the public
official enjoys a qualified immunity in the absence of

App. 120
‘malice.’” Thomas v. City of Annapolis, 688 A.2d 448,
454 (Md. Ct. Spec. App. 1997). Malice, in this
context, requires a “deliberate, intentional,
nonprivileged, non-legally justified act[,] or one
committed with actual malice.” Id. at 456. Here,
Russell and Lioi meet the initial requirements for
asserting public official immunity; both were public
officials acting within the scope of their discretionary
duties, and there is no evidence they acted with
“malice.” The Maryland Court of Appeals recently
held, however, that “gross negligence is an exception
to common law public official immunity” and that if
a police officer “act[s] with gross negligence, [he or
she] is not entitled to immunity under common law
public official immunity.” Cooper, 118 A.3d at 849.
Accordingly, Russell and Lioi are not entitled to
public official immunity if plaintiffs can establish a
viable gross negligence claim against them.
Even if all genuine factual disputes are resolved
in favor of plaintiffs, however, a reasonable
factfinder could not conclude that Russell or Lioi
were grossly negligent with respect to Ms. Williams.
Despite plaintiffs’ arguments to the contrary, they
have provided no evidence that Russell or Lioi
“inflicted injury intentionally” on Ms. Williams. Gray
v. Kern, 124 F. Supp. 3d at 611. Furthermore,
neither Russell nor Lioi acted “so utterly
indifferent[ly] to the rights of [Ms. Williams] that
[they acted] as if such rights did not exist.” Id.
Additionally, the court finds plaintiffs’ gross
negligence claim fails on the causation element. To
establish causation, plaintiffs must prove Russell
and Lioi’s “negligence was ‘both a cause in fact of the
injury and a legally cognizable cause.’” Pasternak, 95
F. Supp. 3d at 895 (citing Casey v. Geek Squad

App. 121
Subsidiary Best Buy Stores, L.P., 823 F. Supp. 2d
334, 351 (D. Md. 2011)).
The “cause in fact” inquiry “concerns
whether defendant's negligent conduct
actually produced an injury.” Maryland
courts consider two tests in determining
whether causation-in-fact exists: the “but
for” test and the substantial factor test.
The “but for” test considers whether the
injury would not have occurred absent
defendant's
negligent
conduct.
The
substantial factor test applies in situations
where more than one independent negligent
act may be responsible for a plaintiff’s injury.
Under the substantial factor test, an action
is viewed as the cause of an injury only if the
action was a substantial factor in bringing
about plaintiff’s injury.
The “legal causation” inquiry is a policyoriented doctrine designed to be a method for
limiting liability after cause-in-fact has been
established. Commonly, this inquiry involves
a determination of whether the injuries were
a foreseeable result of the negligent conduct.
(“In applying the test of foreseeability [or,
legal causation] . . . it is well to keep in mind
that it is simply intended to reflect current
societal standards with respect to an
acceptable nexus between the negligent act
and the ensuing harm, and to avoid the
attachment of liability where . . . it appears
‘highly extraordinary’ that the negligent
conduct should have brought about the
harm.”).

App. 122
Id. at 895 (citing Casey, 823 F. Supp. 2d at 351)
(internal citations and quotation marks omitted).
Here, plaintiffs’ gross negligence claim-fails both the
“cause in fact” and “legal causation” inquiries.
First, as discussed supra, it cannot be argued
that Russell or Lioi caused the harm suffered by Ms.
Williams by failing to ensure Mr. Williams’s arrest.
As Stanford O’Neill Franklin attested, Mr. Williams
“would have been released within 24 hours on his
personal recognizance,” because “an established
member of the community with local ties, no violent
criminal history and no apparent danger to society is
[generally] released on [his] personal recognizance.”
(Stanford O’Neill Franklin Aff. ¶¶ 53, ECF No. 14413, Ex. 11). Therefore, even if Mr. Williams had been
arrested when he initially surrendered himself at
the Eastern District on Thursday, November 13,
2008—or any date prior during one of the “turn
ups”—he would have been free the following Monday
to attack Ms. Williams. Furthermore, such an
argument relies on the assumption that Mr.
Williams needed to be free on Monday, November 17,
2008, to murder his wife because that was the only
day he knew of his wife’s location (at the
courthouse). However, there is evidence suggesting
Mr. Williams knew where Ms. Williams was during
this time period, which farther suggests defendants
did not “cause” the injury to Ms. Williams.
Next, even assuming Russell and Lioi purposely
diverted the arrest warrant and purposely delayed
Mr. Williams’s voluntary surrender date, thereby
allowing Mr. Williams to remain free until the day
he murdered his wife, these actions still would not
be the “but for” cause of Ms. Williams’s death. Nor
can it be argued these acts were a “substantial

App. 123
factor” in her death. Here, the “but for” cause or
“substantial factor,” simply put, was Mr. Williams’s
decision to murder his wife and his completion of
that act. Furthermore, even assuming, arguendo,
that “cause in fact” is satisfied, “legal causation” is
not. The fact that Mr. Williams eventually murdered
his wife on Monday, November 17, 2008, was not a
foreseeable result of any acts committed by Russell
or Lioi. Given that Mr. Williams was willing to turn
himself in voluntarily, there was no reason for
Russell or Lioi to believe Mr. Williams would attack
Ms. Williams, let alone murder her. None of Russell
or Lioi’s alleged acts was the proximate cause of Ms.
Williams death; rather, the proximate cause was Mr.
Williams’s decisions and actions.
Accordingly, Russell and Lioi are entitled to
summary judgment on plaintiffs’ gross negligence
claim because, in addition to failing to establish
causation, plaintiffs have failed to provide evidence
suggesting Russell or Lioi “inflicted injury
intentionally” on Ms. Williams, Gray v. Kern,124 F.
Supp. 3d at 611, or that they acted “so utterly
indifferently] to the rights of [Ms. Williams] that
[they acted] as if such rights did not exist,” id.
C. Reckless Endangerment (Count 8)
“Reckless endangerment is purely a statutory
crime.” Holbrook v. State, 772 A.2d 1240, 1246 (Md.
2001). Defendants argue this count fails as a matter
of law because plaintiffs cannot impose civil liability
on Russell and Lioi for alleged criminal activity.
Plaintiffs do not respond to this argument,
seemingly recognizing this count fails. Accordingly,

App. 124
the defendants are entitled to summary judgment on
plaintiffs’ reckless endangerment claim.
D. Intentional Infliction of Emotional Distress
(Count 9)
Defendants Russell and Lioi are entitled to
summary judgment on plaintiffs’ intentional
infliction of emotional distress (“IIED”) claims.
Maryland courts have emphasized “[t]he tort of
intentional infliction of emotional distress is rarely
viable, and is ‘to be used sparingly and only for
opprobrious behavior that includes truly outrageous
conduct.’” Bagwell v. Peninsula Reg'l Med. Ctr.,665
A.2d 297, 319 (Md. Ct. Spec. App. 1995) (quoting
Kentucky Fried Chicken Nat. Mgmt. Co. v.
Weathersby , 607 A.2d 8, 11 (Md. 1992)).
Furthermore, the “general rule that emerges from
caselaw” is that “the requirements of the rule are
rigorous, and difficult to satisfy.” Id. citing W. Page
Keeton, Prosser and Keeton on the Law of Torts § 12,
pp. 60-61 (5th ed. 1984). “A claim of IIED has four
elements: (1) intentional or reckless conduct that is
(2) extreme and outrageous and is (3) causally
connected to the emotional distress, which is (4)
severe.” Doe v. Salisbury Univ., 123 F. Supp. 3d 748,
759 (D. Md. 2015); see also Harris v. Jones, 380 A.2d
611, 614 (Md. 1977) (listing elements). Regarding the
second element, the defendants’ conduct must be “so
outrageous in character, and so extreme in degree,
as to go beyond all possible bounds of decency, and to
be regarded as atrocious, and utterly intolerable in
a civilized community.” Khalifa v. Shannon, 945
A.2d 1244, 1254 (Md. 2008) (citing Harris v. Jones,
380 A.2d 611, 614 (Md. 1977)).

App. 125
In this case, even assuming Russell’s and Lioi’s
conduct was “intentional or reckless,” plaintiffs’ IIED
claim fails. First, Russell’s and Lioi’ s actions,
construed in plaintiffs’ favor, were not sufficiently
“extreme and outrageous” to support an IIED claim.
The facts presented, viewed in the light most
favorable to plaintiffs, suggest that: (1) BCPD did
not follow proper procedures for handling warrants,
allegedly at Russell’s instruction; (2) Russell and
Lioi communicated with Mr. Williams via phone and
text, predominantly for the purpose of scheduling his
date of voluntary surrender; and (3) Russell and Lioi
allowed Mr. Williams to leave the station on
Thursday, November 13, 2008, when the arrest
warrant could not be located, ultimately delaying his
voluntary surrender date to Tuesday, November 18,
2008. None of these acts, viewed individually or
together, are “so outrageous in character, and so
extreme in degree, as to go beyond all possible
bounds of decency, and to be regarded as atrocious,
and utterly intolerable in a civilized community.”
Khalifa, 945 A. 2 d at 1254 (citing Harris v. Jones,
380 A.2d at 614). Furthermore, this IIED claim fails
on causation grounds as discussed supra in Section
V(B). Accordingly, defendants Russell and Lioi are
entitled to summary judgment on plaintiffs’ IIED
claim.
E. Wrongful death and Survival Action
(Counts 4 and 5)
“Under the Survival Act, the personal
representative of an estate may bring ‘a personal
action which the decedent might have commenced or
prosecuted’ including an action ‘against a tort-feasor

App. 126
for a wrong which resulted in the death of the
decedent.”’ Littleton v. Prince George's Cty., Md., 797
F. Supp. 2d 648, 658 (D. Md. 2011), aff’d in part,
rev'd in part and remanded sub nom. Littleton v.
Swonger, 502 F. App'x 271 (4th Cir. 2012) (quoting
Md. Code Ann., Est & Trusts § 7-401(y)(2008)). The
survival action “arises from the tortious infliction of
injury upon the victim” and “damages are measured
in terms of harm to the victim [.]” State v. Copes, 927
A.2d 426, 434 (Md. Ct. Spec. App. 2007) (quoting
Benjamin v. Union Carbide Corp., 873 A.2d 463, 480
(Md. Ct. Spec. App. 2005)) (emphasis in original). In
contrast, “[u]nder the Maryland Wrongful Death Act,
a party may bring an action for wrongful death
against a person ‘whose wrongful act causes the
death of another."' Littleton, 797 F. Supp. 2d at 658
(citing Md. Code Ann., Cts. & Jud. Proc. § 3-902(a)).
“An action under Maryland's wrongful death statute
is separate, distinct, and independent from a
survival action, even when those actions arise out of
a common tortious act.” FutureCare NorthPoint, LLC
v. Peeler, 143 A.3d 191, 203 (Md. Ct. Spec. App.
2016). “A wrongful act is ‘an act, neglect, or default
including a felonious act which would have entitled
the party injured to maintain an action and recover
damages if death had not ensued.’” Id. at 204 (citing
Md. Code Ann., Cts. & Jud. Proc. § 3-901(e)).
“Therefore, a party may only prevail in either cause
of action if it can show that the Defendant
committed a wrongful act.” Littleton,797 F. Supp. 2d
at 658. Furthermore, both causes of action require a
showing of causation. See, e.g., Osunde v. Lewis, 281
F.R.D. 250, 260 (D. Md. 2012) (granting summary
judgment because “[p]laintiffs [we]re unable to
establish the causation element of their wrongful

App. 127
death claim with specific facts that would be
admissible at trial).
Plaintiffs argue that “wrongful acts” include not
only “negligent conduct (with its focus on a duty and
corresponding breach), but also on intentional and
other
tortious
misconduct
including
the
constitutional claims at issue here.” (PI. Opp’ n at
31, ECF No. 175-1). Even if plaintiffs’ expansive
view of “wrongful acts” is correct, they have failed to
proffer evidence to support these other claims.
Furthermore, ordinary negligence cannot serve as
the basis for either claim, because Russell and Lioi
are accorded public official immunity. See Cooper,
443 Md. at 680 (explaining that public officials are
accorded immunity in cases of ordinary negligence).
Lastly, these claims also would fail on the causation
grounds discussed above. Accordingly, defendants
Russell and Lioi are entitled to summary judgment
on these two counts.
CONCLUSION
For the above stated reasons, plaintiffs’ Motion
to Strike will be denied, Lioi’s Cross- Motion to
Modify Scheduling Order will be granted, and Lioi’s
and Russell’s Motions for Summary Judgment on
counts I, III-V, and VII-X, will be granted. A
separate Order follows.
Date: 06/30/17

/s/ Catherine C. Blake
United States District Judge

App. 128
FILED: September 18, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 17-1848
(1:12-cv-00192-CCB)
EUNICE GRAVES,
Plaintiff – Appellant,
and
CARLIN ROBINSON, individually, as Guardian and
next Friend of I.Y., M.Y. and A.Y., and as Personal
Representative of the Estate of Veronica Williams,
Deceased,
Plaintiff,
v.
DANIEL A. LIOI; MELVIN RUSSELL, Major,
Defendants – Appellees,
and
BALTIMORE CITY POLICE DEPARTMENT,
Defendant,
CLEAVEN L. WILLIAMS, JR.,
Defendant.

App. 129
No. 17-1857
(1:12-cv-00192-CCB)
CARLIN ROBINSON, individually, as Guardian and
next Friend of I.Y., M.Y. and A.Y., and as Personal
Representative of the Estate of Veronica Williams,
Deceased,
Plaintiff – Appellant,
and
EUNICE GRAVES,
Plaintiff,
v.
DANIEL A. LIOI; MELVIN RUSSELL, Major,
Defendants – Appellees,
and
BALTIMORE CITY POLICE DEPARTMENT,
Defendant,
CLEAVEN L. WILLIAMS, JR.,
Defendant.
ORDER
The Court denies the petition for rehearing en
banc.
A requested poll of the court failed to produce a
majority of judges in regular active service and not
disqualified who voted in favor of rehearing en banc.
Chief Judge Gregory voted to grant rehearing en
banc; Judge Wilkinson, Judge Niemeyer, Judge
King, Judge Agee, Judge Wynn, Judge Diaz, Judge
Floyd, Judge Thacker, Judge Harris, Judge

App. 130
Quattlebaum, Judge Richardson, and Judge Rushing
voted to deny rehearing en banc. Judge Motz and
Judge Keenan did not participate in the poll.
Entered at the direction of Judge Agee.
For the Court
/s/ Patricia S. Connor, Clerk

AGEE, Judge, concurring in the denial of rehearing
en banc:
The Due Process Clause of the U.S.
Constitution’s Fourteenth Amendment prohibits
States from “depriv[ing] any person of life, liberty, or
property, without due process of law.” U.S. Const.
amend. XIV, § 1. “But nothing in the language of the
Due Process Clause itself requires the State to
protect the life, liberty, and property of its citizens
against invasion by private actors.” DeShaney v.
Winnebago Cty. Dep’t of Social Servs., 489 U.S. 189,
195 (1989). A “narrow” exception to this general rule
exists when a state actor “created or increased the
risk of private danger, and did so directly through
affirmative acts, not merely through inaction of
omission.” Doe v. Rosa, 795 F.3d 429, 439 (4th Cir.
2015).
Viewing the facts developed during discovery in
the light most favorable to the plaintiffs, the
majority opinion explains at length that they failed
to satisfy their burden at summary judgment to
show the defendant Baltimore City Police
Department officers created or increased the risk of
harm that Veronica Williams’ husband posed to her

App. 131
and her unborn child. As Judge Blake found in a
thorough and meticulous review, there is simply no
evidence in the summary judgment record to match
the plaintiffs’ allegations. There is no evidence the
defendant officers diverted the arrest warrant. Nor
is there any evidence that either officer assisted
Williams with avoiding arrest, ordered that he not
be arrested, or affirmatively prevented Williams
from being arrested earlier. And there is no evidence
that either officer had reason to believe Williams
posed a specific or immediate danger to his wife
apart from the mere existence of the misdemeanor
warrant. Finally, Officer Lioi’s texts to Mr. Williams,
without contradiction, told him to avoid his wife. J.A.
559 (“I wouldn’t be alone with her. . . . Have a
witness with you if you meet. . . . I would avoid
her.”).
In short, the record does not allow for the
conclusion that the officers undertook affirmative
acts that would allow for liability under the statecreated danger doctrine. Pinder v. Johnson, 54 F.3d
1169, 1175, 1177 (4th Cir. 1995) (en banc) (stating
that state actors do not “‘commit[] an affirmative act’
or ‘create[] a danger’ every time [they] do[] anything
that makes injury at the hands of a third party more
likely,” and that instead, would-be plaintiffs must
come forward with evidence of an act “more akin to
a[] [state] actor [himself] directly causing harm to
the injured party”). As Judge Blake’s detailed
opinion noted, the record is devoid of evidence of an
act “akin to a[] [state] actor [himself] directly
causing harm to the injured party.” Pinder, 54 F.3d
at 1177.
The panel majority faithfully applied the
principles set out in Deshaney, Doe, and Pinder as

App. 132
well as Town of Castle Rock, Colo. v. Gonzales, 545
U.S. 748 (2005). The plaintiffs simply failed to meet
their burden to survive summary judgement as
properly determined on the record applying the high
bar set by these cases. I therefore concur in the
Court’s decision to deny en banc rehearing.

GREGORY, Chief Judge, dissenting from the denial
of rehearing en banc:
The state-created danger doctrine is narrow, but
it isn’t naught. It provides a cause of action where,
as here, there is triable evidence of injury resulting
from state officers’ affirmative conduct that
enhanced a dangerous situation, which a reasonable
officer would have known to exist. See Doe v. Rosa,
795 F.3d 429, 437, 440 (4th Cir. 2015). The injury
need not result from the hand nor intent of the
officers to do harm. In this case, the enhanced
danger resulted in the death of a mother and her
unborn child.
An analysis of the doctrine is assisted by a
methodical approach: (1) understanding the danger;
(2) determining whether a reasonable officer would
have understood the danger existed; (3) assessing
whether the danger was enhanced by the officer’s
affirmative conduct; and (4) deciding whether the
injury was within the scope of reasonable
consequences that flow from the enhanced danger.
With all due respect, this Circuit’s new precedent is
wanting in this regard. I write to note how
important it is to analyze the state-created danger

App. 133
doctrine properly. The rigor and reason of the full
Court would have been helpful.
Viewed through the proper framework, with all
reasonable inferences drawn in favor of the nonmovant as required on summary judgment, the facts
in this case present a jury question on state-created
danger. First, the evidence shows that Williams
posed a threat to Mrs. Williams because she swore
out a warrant for his arrest by reporting that he had
restrained her and cut off her hair. J.A. 311. Second,
a reasonable officer would have known that Mrs.
Williams’s swearing out a warrant for the assault
posed a danger to her. Even without the specifics of
her report, the domestic assault charge in the
warrant would have placed a reasonable officer on
notice of the danger she faced as a victim of domestic
violence.1 J.A. 764.
Third, a jury could find that Major Russell and
Deputy Lioi enhanced the danger to Mrs. Williams
by deliberately acting to help Williams delay his
arrest, even though they had no intent to harm her.
Our prior cases have established that the statecreated danger doctrine does not apply to failures or
omissions. See Doe, 795 F.3d at 431, 439–41
(deciding that a college president did not
affirmatively increase the risk of child abuse by
About half of all female homicides result from domestic
violence. Emiko Petrosky, MD, et al., Racial and Ethnic
Differences in Homicides of Adult Women and the Role of
Intimate Partner Violence – United States, 2003-2014,
Morbidity and Mortality Weekly Report (July 21, 2017),
https://www.cdc.gov/mmwr/volumes/66/wr/mm6628a1.htm?s_ci
d=mm6628a1_w#T1_down. Critically, the same report found
that one in ten victims of intimate partner homicide was
reported to have experienced violence in the month preceding
their death. Id.

1

App. 134
failing to report it to law enforcement); Pinder v.
Johnson, 54 F.3d 1169, 1172, 1175 (4th Cir. 1995)
(holding that an officer’s failure to charge the
plaintiff’s ex-boyfriend with a “serious offense” did
not qualify as an affirmative act). But the officers’
conduct in this case goes beyond a mere failure to
arrest.
For instance, there is evidence that the officer
who picked up the arrest warrant for Williams did
not take it to Central Records pursuant to protocol,
and that he would only depart from protocol (1) if an
officer already had the suspect in custody (which is
not the case here), or (2) if a superior officer, like
Deputy Lioi or Major Russell, gave an order to do so.
J.A. 575–78, 589. Indeed, there is evidence that
Major Russell said the warrant had been “pulled”
from its normal processing route. J.A. 268. Both
officers also made arrangements with Williams to
allow him to self-surrender on his terms. See, e.g.,
J.A. 277.
Additionally, the record shows that Deputy Lioi
advised Williams to stay away from his wife, so as to
avoid forcing the officers’ hands to serve the
warrant. See, e.g., J.A. 700–05. Deputy Lioi also took
the liberty of providing Williams with two letters,
including one that confirmed Williams had tried to
turn himself in without any mention of the
coordinated plan for Williams to self-surrender the
following week. J.A. 631–32. Taken together, this
evidence shows that the officers committed
affirmative acts—not mere failures or omissions—to
help Williams delay arrest on domestic assault
charges. Accordingly, a jury could find that, by
delaying Williams’ arrest, the officers enhanced the
danger Williams posed to his wife.

App. 135
Fourth, the death of Mrs. Williams and her
unborn child fell within the scope of reasonable
consequences of the officers’ conduct to assist her
abusive husband in delaying arrest. In light of the
clear danger that domestic violence victims face,
especially after reporting their abusers to
authorities, see supra n.*, the officers nevertheless
worked with Williams to postpone his arrest until a
time of his choosing. Thus, a jury could find that the
officers’ deliberate conduct to help Williams delay
arrest enhanced the known danger that led to Mrs.
Williams and her unborn child being stabbed to
death. And it is simply error to say as a matter of
law that a jury could not so find.
There are cases that instruct us as to when the
state-created danger doctrine does not apply, but
unless we analyze the law and facts through the
appropriate framework, we may never find a case in
which the doctrine does apply. Here, we had a
chance to say what the doctrine is and how it should
be applied, and we failed to do so. Because this
leaves our jurisprudence wanting, I dissent from the
decision to deny rehearing en banc.

